<html>
<title> - HOW DO WE PROMOTE DEMOCRATIZATION, POVERTY ALLEVIATION, AND HUMAN RIGHTS TO BUILD A MORE SECURE FUTURE?</title>
<body><pre>[Senate Hearing 107-300]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-300
 
   HOW DO WE PROMOTE DEMOCRATIZATION, POVERTY ALLEVIATION, AND HUMAN 
                 RIGHTS TO BUILD A MORE SECURE FUTURE?
=======================================================================




                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION
                               __________

                            FEBRUARY 27, 2002
                               __________

       Printed for the use of the Committee on Foreign Relations








 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                            U.S. GOVERNMENT PRINTING OFFICE
77-983                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)

  








                            C O N T E N T S

                              ----------                              
                                                                   Page

Albright, Hon. Madeleine K., former Secretary of State; chairman, 
  National Democratic Institute, Washington, DC..................     5
    Prepared statement...........................................     8
Biden, Hon. Joseph R., Jr., U.S. Senator fron Delaware, prepared 
  statement......................................................     2
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    22
Perle, Hon. Richard N., former Assistant Secretary of Defense for 
  International Security; resident fellow, American Enterprise 
  Institute, Washington, DC......................................    29
    Prepared statement...........................................    38

                                 (iii)

  









   HOW DO WE PROMOTE DEMOCRATIZATION, POVERTY ALLEVIATION, AND HUMAN 
                 RIGHTS TO BUILD A MORE SECURE FUTURE?

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2002

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-419, Dirksen Senate Office Building, Hon. Joseph R. Biden, 
Jr. (chairman of the committee), presiding.
    Present: Senators Biden, Feingold, Bill Nelson, Helms, 
Lugar, Chafee and Brownback.
    The Chairman. The meeting will come to order. We thank our 
witnesses for their indulgence in starting late. We had a very 
important, very close vote--I don't know what the outcome even 
was, but a close vote that was originally scheduled at 9:30, 
which was pushed back until 10:05, and, even at that, got off 
to a slow start. So we apologize to everyone for the late 
start.
    We have two very distinguished witnesses today, and we're 
going to begin with the former Secretary of State and a good 
friend of this committee's. I'll make a very brief statement 
and then turn it over to Senator Helms and then Senator Lugar, 
if he wishes to make a statement, and then we'll get on with 
the business of the hearing.
    In the past few hearings, we've looked at the strategic 
nuclear framework, the war on terrorism, the spread of HIV/
AIDS. And this is a part of a series of hearings we're going to 
be having in conjunction with Chairman Helms on securing the 
future of America. Over the coming months, we'll examine the 
threat of chemical, biological, and radiological terrorism and 
consider what would be required to bring Iraq back into the 
community of nations once Saddam Hussein is removed from power.
    But today we want to explore some very difficult issues 
regarding terrorism around the world. On September 11, all of 
us asked, in one way or another, who would do such a thing, and 
why could this possibly happen? Was it from some deep-seated 
religious belief that caused this to happen? Was it a 
consequence of a perversion of a view of Islam? What was the 
cause?
    And we hear people say the cause is poverty, the cause is 
inhumanity, the cause is lack of democratization. Well, the 
truth of the matter is--I may be the only one who thinks this, 
but I don't think anyone knows for certain what the cause is, 
and I don't think we've spent very much time trying to 
determine what spawns this kind of terrorist activity?
    And so what we want to do today is explore this matter, 
with two very knowledgeable people. Our second witness will be 
Richard Perle, a man well-known to all of us and extremely 
well-regarded in foreign policy and defense circles. And I 
would like to figure out whether or not there is any emerging 
consensus on what is the source of the problem, because until 
we figure that out, it's very hard to figure out a 
prescription.
    For example, there's an intense and excruciating poverty in 
Brazil. Why are there not terrorist cells--or are there 
terrorist cells we should worry about, coming out of Brazil. 
Why does it happen in one part of the world and not another? Is 
it because there is a democracy in Brazil? I just picked Brazil 
off the top of my head as a country with extreme pockets of 
poverty.
    And so I find it difficult to reach an easy conclusion that 
the cause of this terrorist activity, and particularly what 
happened on September 11--these were middle and upper-middle 
class, well-educated people who planned this undertaking and 
were very successful.
    We've already seen what poverty, instability, corruption 
and repression can do in other countries around the world, but 
is that the reason why this terrorism has become such an 
endemic problem for the world and for the United States?
    As the New York Times journalist, Tom Friedman, has 
written, ``If you don't visit a bad neighborhood, it will visit 
you.'' Well, should our major thrust be in dealing, not only 
with the immediate effort of finishing the job with bin Laden 
and with al-Qaeda, but what should we be doing beyond this?
    I read this morning--and I'll cease with this--but USA 
Today, today's edition, Wednesday, February 27, says, ``In a 
poll, the Islamic world said Arabs not involved in 9-11.'' And 
then it says, ``Attacks condemned, but some say justified. 
Nine-nation results,'' and it gives them nation-by-nation in 
this poll. I can't vouch for the poll. I assume it was done by 
the Gallup organization.
    It says Islamic view, ``Sixty-one percent of Muslims polled 
say Arabs were not involved in the September 11 attack.'' 
Kuwait, the country that we saved--89 percent of the people in 
Kuwait say, ``Arabs not involved.'' Pakistan, 86 percent. 
Indonesia, 74. Iran, 59. Lebanon, 58. And Turkey, 43.
    Why? Why? Why is this? And there's further breakdown. And 
what do we, from a policy point of view, do about it?
    I will ask unanimous consent that the remainder of my 
statement be placed in the record, and I would now yield to 
Senator Helms.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Good morning. Today continues our series of hearings on Securing 
America's Future.
    Past hearings have looked at the strategic nuclear framework, the 
war on terrorism, and the spread of HIV/AIDS.
    Over the coming months, we will examine the threat of chemical, 
biological, and radiological terrorism, and consider what would be 
required to bring Iraq back into the community of nations once Saddam 
Hussein is removed from power.
    But today we want to explore some difficult issues regarding 
terrorism around the world.
    On September 11, all of us asked, in one way or another, who would 
do such a thing and why? Was it for a belief? Was it for a cause?
    Was it for one man like Osama bin Laden or are the underlying 
problems more systemic? Was it out of frustration or anger? How large a 
role, respectively, do economic, social, and political circumstances 
play in creating fertile grounds for terrorism? And what can and should 
we do about it?
    There's no doubt that the tragic events of September 11 were a 
wake-up call.
    September's terrorist attacks made us realize that the world is a 
smaller, more intimately connected place than we once thought.
    Our stunning preliminary success in Afghanistan has put the world 
on notice that we can and will do what it takes to defend our country. 
But, we know that our military alone cannot guarantee our security.
    Addressing the terrorist threat will require close international 
cooperation between diplomats, police and intelligence officers, and 
customs and immigration officials.
    It will require that we work on all of these levels to track down 
and destroy terrorist organizations like al-Qaeda.
    And it will require a deeper understanding of the effects of 
religious extremism, grinding poverty, and oppressive governments on 
America's national security.
    Everyone agrees nothing can ever justify brutal terrorist acts. Nor 
are efforts to address these conditions a magic bullet that will 
eliminate terrorism.
    But until we better understand what drives an otherwise 
intelligent, often middle-class young man to pilot a commercial 
aircraft into a skyscraper--whether it's religious intolerance taken to 
its extreme, or exacerbated by abject poverty, or by theological 
teachings, or by a combination of social, political, cultural, economic 
conditions and religious values gone amok--we will not know what the 
magic bullet is.
    It is clear that we cannot ignore the plight of the world's 
disaffected. If we do, we do it at our own peril.
    We have already seen what poverty, instability, corruption, and 
repression can do in places like Afghanistan, Somalia, and Sudan, and 
how conditions in such places can threaten America's national security.
    As New York Times journalist Tom Friedman has written, ``if you 
don't visit a bad neighborhood, it will visit you.''
    But the question for us today is this: What exactly is the 
connection between economic conditions, the lack of democratic 
development, and the vehemence of extremist fundamentalist terrorism?
    What combination of economic, social, and political factors cause 
states to fail or teeter on the brink of failure?
    How grave is the danger to American interests posed by such states 
and what can we do about these failed and failing states?
    How prepared are our institutions for engaging in these activities?
    How effective have our past efforts been to stabilize conflicts in 
places like Bosnia, Kosovo, and East Timor, and do these efforts 
provide models we can use in the future?
    President Bush recognized the critical role that democratization 
and development can play in the war on terrorism when he stated to the 
UN General Assembly last November that ``In our struggle against 
hateful groups that exploit poverty and despair, we must offer an 
alternative of opportunity and hope.''
    Today, we will discuss one of our key tools for doing this: 
America's foreign assistance. We will look at whether effective 
targeting of such assistance promotes democratization. Does it foster 
human rights? Does it address crippling poverty? Does it ensure 
political stability?
    While we are spending ever increasing sums to meet our military 
needs, we devote only 0.1 percent of our gross domestic product to 
official development assistance.
    Foreign assistance alone will not guarantee our security, but our 
military alone cannot do so at any funding level.
    The challenge for us, therefore, is to try to determine the 
appropriate balance among our critical security tasks, including the 
promotion of democratization and development.
    In the end, will our efforts to target such assistance, in fact, 
help draw the world's poorest populations toward productive self-
sufficiency, and, in so doing, does it have an impact on addressing 
underlying causes of terrorism?
    We all acknowledge that addressing poverty comes with the territory 
for the richest nation on earth. But, with respect to terrorism, 
economic hardship is only part of a very complicated matrix of factors.
    I hope we have a better understanding of these issues when these 
hearings are concluded.
    I am delighted to have two such prominent witnesses to discuss 
these matters today. Former Secretary of State Madeleine Albright has 
been a leader of global efforts to promote democracy and human rights 
around the world as UN Ambassador and Secretary of State during the 
Clinton administration, and now as chair of the National Democratic 
Institute.
    The honorable Richard Perle is chairman of the Defense Policy Board 
at the Department of Defense, and served as Assistant Secretary of 
Defense for International Security Policy during the Reagan 
administration.
    Senator Helms.

    Senator Helms. I expect some of those people were talking 
behind their hand or something. They know better than those 
social statistics.
    Mr. Chairman, I've been around this place the same amount 
of time you have. We were sworn the same morning. And I've 
enjoyed just about every minute I've ever spent with you. I'm 
enjoying this morning because it brings and old--young--friend 
back.
    Two young friends, as a matter of fact. One's better 
looking than the other, but he'll do alright in some circles.
    The point I think we need to bear in mind, Mr. Chairman, 
and I am going to boil down my statement, as well, is that I 
have noted our self-proclaimed foreign-policy experts, ever 
since I've been here, going out of the way to ignore a basic 
truth, and that is that tyrants and bullies never make good 
allies. Never. Just as they threaten and steal from their own 
people and their neighbors, so do they threaten the world's 
freedom-loving nations. And it's no coincidence that Saddam 
Hussein's regime, for example, murdered upwards of 100,000 of 
his people using gas on those Kurds. Nor is it a surprise that 
hundreds, perhaps thousands of Iranians have been jailed or 
murdered by Iran's theocratic dictatorship, and governments 
having to test honestly their own popularity at the ballot box. 
And I would ask you to point out somewhere along the line that 
they don't have votes among the people who knocked down the 
towers in New York and so forth.
    A government capable of working within the community of 
nations is not going to seek influence in any way--particularly 
to influence events--by sponsoring terrorism, all with weapons 
of mass destruction. The nation that respects its own people 
and the rule of law is not going to be interested in 
proliferating weapons of mass destruction to others. But we're 
talking about human nature here. And how to change that, I 
don't know.
    I've got a friend--and I'll wind up with this; just with a 
personal observation--I've got a friend who tonight is going to 
be awarded two Grammys. His name is Bono and he's an Irishman. 
And Madam Secretary, has a great interest in Africa. Have you 
met with him?
    Secretary Albright. I have, yes.
    Senator Helms. Well, then you know how--you know the depth 
of his feeling about this thing. And I'm trying to work with 
him.
    In any case, it's great to have you back. And I thank you, 
Mr. Chairman, for scheduling this meeting.
    The Chairman. Thank you. This isn't usually the way we go, 
but we have a small group here. Would any of my colleagues like 
to make an opening statement?
    Senator Lugar. It is just simply great to see you Secretary 
Albright. You have been such a good friend to this committee. 
Institutionally, the work you did as Secretary of State with 
our committee exemplifies the checks and balances, and the 
consultation features the Constitution provides. I appreciate 
your great service and simply want to say it's great to have 
you here.
    And, likewise, Richard Perle is a tremendously important 
voice in American foreign policy. I recollect that he was with 
Henry ``Scoop'' Jackson at the Intelligence Committee, back 
when that committee was formed, after the Church committee 
investigations. He played an important role then, and has been 
doing so subsequently.
    So I congratulate you, Mr. Chairman and Senator Helms, on 
bringing these witnesses to another good hearing.
    The Chairman. Thank you. Any of my colleagues? The floor is 
yours, Madam Secretary. And one question before you begin: have 
you ever sung with Bono
    Secretary Albright. No.
    The Chairman. OK.
    Secretary Albright. However, people thought that Chairman 
Helms and I were an odd couple, I think.
    The Chairman. You're a great couple.

 STATEMENT OF HON. MADELEINE K. ALBRIGHT, FORMER SECRETARY OF 
 STATE; CHAIRMAN, NATIONAL DEMOCRATIC INSTITUTE, WASHINGTON, DC

    Secretary Albright. Mr. Chairman and Senators, I'm really 
very glad to be back here. I always did have a great time here 
and feel that I have many friends on the committee, and 
bipartisanship is definitely alive and well.
    The Chairman. I apologize for interrupting. Can you all 
hear in the back? Is that microphone on? They can't hear, so 
maybe we can click it up a little, Bertie----
    Secretary Albright. OK.
    The Chairman [continuing]. Because the Secretary is 
speaking right into it, so it must be the mike. Thank you.
    Secretary Albright. As I said, I really am very pleased to 
be back here with so many good friends. But since I'm no longer 
Secretary of State, I don't feel obligated to present a tour of 
the horizon. Instead, I think I really do want to focus on a 
single point, and it very much meshes with the statements that 
both you and Senator Helms have made.
    The point is that the strategic map of the world has 
changed, and it now encompasses the entire globe. And where it 
once was easier to categorize countries by their importance, we 
are not able to do that with any degree of confidence today.
    During the Clinton administration, we focused on the 
problem of terrorism every day and put into place a number of 
actions that I think that the Bush administration is now 
building on. But I must say that the events of August 1998, 
when our embassies were blown up in Kenya and Tanzania, really 
focused us even more. And at that point, I asked for a review 
of other U.S. diplomatic outposts where al-Qaeda was active. 
And when the list came back, there were 38 missions on it, from 
Riyadh to Manila and from Addis Ababa to Berlin. And so we 
really worked very hard to try to secure the posts there, and 
it showed to us the pervasiveness of the terrorist threat.
    And then September 11 happened, which clearly was the 
deadliest assault ever. And it came, not from a nuclear 
superpower, but from a scattered stateless group using cell 
phones and based in one of the poorest and most remote nations 
in the world.
    And the lesson is that the safety of our citizens can be 
imperiled by events virtually anywhere. So we do have an 
interest in strengthening those everywhere who support freedom, 
the rule of law, broader prosperity, and wider peace.
    Now, certainly, terrorists can exist in any country, but 
they cannot long operate where leaders are accountable and 
legal institutions are respected. And so in fighting terror, 
democracies have a clear advantage because they embrace 
pluralism, encourage tolerance, enable citizens to pursue 
change in a peaceful and lawful way. And democracy also has the 
best record of fostering peace, stability, and development. 
Governments that are publicly answerable rarely start wars, 
while societies are more likely to prosper if their people are 
free to express their ideas, market their labor and pursue a 
better life.
    Now, democracy is no panacea, and it can be frustrating and 
contentious, and it requires an incredible amount of hard work. 
And sometimes the wrong people get elected. But on the whole, 
promoting democracy is both right and smart. The question is, 
what is the smart and right way to go about doing it?
    Now, this morning, I would offer four suggestions. First, I 
think we really have to make full use of the tools that we 
have. The regional institutions, such as the EU or the OSCE and 
the OAS and the African Union, have real legitimacy and an 
ever-growing commitment to spread democratic values. The 
movement toward a community of democracies, launched 2 years 
ago in Warsaw, I think can become an important defender of 
democratic norms. We should back what they're doing very 
vigorously as they prepare to reconvene in Seoul this fall.
    Second, we should help nations in transition. On every 
continent, there are young, vulnerable democracies that are 
beset by problems of crime, poverty, weak institutions, and 
civil strife. Now, we can't do everything, but we can do far 
more than we are now to aid deserving governments in 
strengthening civil society.
    Third, we shouldn't be shy about encouraging democratic 
reform in nations that are not yet free. There are skeptics who 
say that this is inappropriate and that our efforts are doomed 
to failure. But, of course, if skeptics were policymakers, 
Slobodan Milosevic would still be in power instead of on trial 
for genocide. And those who argue that certain countries are 
not suited for democracy I believe are wrong, because no 
country is suited for dictatorship.
    And with that principle in mind, a special focus is needed 
on democratic development in the Middle East. Especially after 
September 11, there can be no denying that terrorism thrives 
where thinking is controlled, debate discouraged, and the 
exchange of information viewed as a threat.
    I know that at least some regional leaders understand the 
need to adapt their societies to make room for competing voices 
and expand the public's role, and we should do all we can to 
encourage this approach while recognizing that not every 
democracy will not look the same.
    Finally, we must not allow our opposition to terror to 
dilute our support for human rights. Mr. Chairman and Senators, 
the battle against terror is not simply, or even primarily, a 
military battle. It is a struggle of ideas, a conflict we 
cannot win simply by smashing caves and splitting rocks. It's a 
fight that we cannot win if we fight alone, and it is a 
confrontation that depends on, not only our ability to define 
what we are against, but also what we are for.
    In his State of the Union Address, President Bush used 
dramatic language to summarize what we are against, but he also 
declared that America will stand firm on behalf of human 
dignity and the rule of law, respect for women and religious 
tolerance. And the President added that we must pay whatever it 
costs to defend our country.
    In this year's budget, he has proposed an increase in 
military spending that is roughly twice the amount we spend on 
all non-military international affairs programs and operations 
worldwide. And, by contrast, the proposed increase for civilian 
programs is extremely modest.
    Now, I am all for a strong military, especially now. And we 
have to be ready to destroy the al-Qaedas of the future, but we 
must also invest in preventing future al-Qaedas from taking 
root. In the President's language, we must do more than oppose 
evil, we must also back the forces of good. And that requires a 
much larger investment than his current budget suggests.
    Now, we all know the objections to spending more on 
international affairs. To some, foreign aid will always be a 
four-letter word. And developing countries, we are told, are 
rife with crooks; and, where there is no honesty, there is no 
hope.
    A couple of weeks ago, Secretary Powell testified before 
this committee, and he said, ``We can no longer invest in 
places where corruption is rampant, where you don't have 
transparency, and where you cannot be sure the money will be 
well spent.'' Now, I agree with that caution, but that caution 
should not become a rationale for inaction.
    Over the years, we have learned how to design international 
programs that reward merit while providing incentives for the 
reluctant to clean up their act. And I have seen our 
investments pay off, helping to destroy nuclear warheads--
thanks a lot to Senator Lugar--and safeguard nuclear materials, 
training thousands of people in counter-terrorism, intercepting 
narcotics, strengthening democratic institutions, raising life 
expectancy, cutting infant mortality, defeating smallpox, 
saving and enriching countless lives.
    The time has come to replace the old myth with truth. Our 
international assistance programs are one of the wisest 
investments we make. They are not money down a rathole. They 
are poison down the snakehole of terrorism helping to choke off 
hatred, ignorance, and desperation upon which terrorism feeds.
    Now, there should be no excuses. After all, we are at war. 
But still we hear the excuses. We are told we can't afford to 
increase significantly our investment in overseas education and 
family planning and battling AIDS and vaccinating children. We 
are told we can't afford to increase our support for 
international peacekeeping or for securing Russia's nuclear 
arsenal and that promoting democracy must take a back seat to 
other worthy goals. To all this, I would reply with a 
diplomatic term of art, ``balderdash.''
    Today, on a per capita basis, Americans contribute only 
about $29 per year through official channels to developing free 
societies and defeating the plagues that undermine them. This 
puts us dead last among industrialized countries.
    In January, the Bush administration blocked a European 
initiative to pledge increased help to poor nations. And it's 
sad, but not surprising--and I base some facts on a recent 
survey by the Pew Research Center. It found that our country is 
almost as much resented as admired overseas. And the reason is 
not the extent of our power, the pervasiveness of our culture, 
or the tilt of our policies in the Middle East. We are resented 
because much of the world believes that we are rich and don't 
share, and because they believe that we are intent on widening 
the gap between the haves and the have-nots across the globe.
    So in these perilous times, we can't afford to allow the 
wrong perception to take hold, and we have to do a better job 
telling our story. And we have to do the best that we can to 
have a good story.
    During World War II and the Cold war, great American 
Presidents, with bipartisan support from Congress, outlined 
bold and generous initiatives to complement our security goal. 
These included the Marshall Plan, the Point Four program, Atoms 
for Peace, and the Peace Corps. And, more recently, with 
leadership from this committee, we have sustained that 
tradition through the National Endowment for Democracy, the 
SEED program, the Freedom Support Act, Nunn-Lugar and the 
African Growth and Opportunity Act.
    And we now need to be bold in developing and financing a 
new generation of initiatives, with democracy-building as a 
priority, to correct the misapprehension and win the battle of 
ideas. By so doing, I think that we can remove all doubt that 
America stands on the side of the people everywhere who yearn 
to walk in freedom, whether or not they are free today, who 
believe in tolerance and respect for the rights of others, and 
who want to live in dignity and build a better life for 
themselves and for their children.
    And that is how I think we can create a strategic map that 
is favorable to our own citizens and to those across the globe 
who oppose terror and cherish liberty and love peace.
    So thank you very much. I'm delighted to be here with you 
again and happy to answer questions.
    [The prepared statement of Secretary Albright follows:]

 Prepared Statement of Hon. Madeleine K. Albright, former Secretary of 
             State; Chairman, National Democratic Institute

    Mr. Chairman, Mr. Vice-Chairman, Senators, good morning, and thank 
you for the warm welcome. This Committee is one of the few on Capitol 
Hill that was bipartisan before bipartisanship was cool, so I have 
friends all around the dais and look forward to our discussion.
    Since I am no longer Secretary of State, I no longer feel obliged 
to present a tour of the horizon. Instead, I will focus on a single 
point. And that point is that the strategic map of the world has 
changed. It now encompasses the entire globe. Where once we could 
easily categorize countries by their importance; we are not able to do 
that with any degree of confidence today.
    In August, 1998, two United States embassies in Africa were 
attacked. The al-Qaeda terrorist network was our immediate suspect.
    I asked for a review of other diplomatic outposts in countries 
where al-Qaeda was active. When the list came back, there were 38 
missions on it from Riyadh to Manila and from Addis Ababa to Berlin.
    From that day until the day we left office, President Clinton and I 
had no higher priority than to prevent further attacks. This was a 
constant preoccupation, because hardly a day went by without a threat 
from some distant corner of the globe.
    And then, on September 11, we received the deadliest foreign 
assault ever on American soil not from a nuclear superpower, but from a 
scattered, stateless group using cell phones and based in one of the 
poorest and most remote nations on Earth.
    The lesson in this is that the safety of our citizens can be 
imperiled by events virtually anywhere. So we have an interest in 
strengthening those everywhere who support freedom, the rule of law, 
broader prosperity, and wider peace.
    Certainly, terrorists can exist in any country. But they cannot 
long operate where leaders are accountable and legal institutions 
respected.
    In fighting terror, democracies have a clear advantage because they 
embrace pluralism, encourage tolerance and enable citizens to pursue 
change in a peaceful and lawful way.
    Democracy also has the best record of fostering peace, stability 
and development. Governments that are publicly answerable rarely start 
wars, while societies are more likely to prosper if their people are 
free to express their ideas, market their labor and pursue a better 
life.
    Democracy is no panacea. It can be frustrating and contentious. It 
requires an incredible amount of hard work. And sometimes the wrong 
people get elected. But on the whole, promoting democracy is both right 
and smart. The question is, what is the smart and right way to go about 
doing it?
    There are many experts in this field, including those at the 
National Endowment for Democracy and its four core institutes,--the 
National Democratic Institute, which I am privileged to serve as chair, 
the International Republican Institute Labor's Solidarity Center and 
the Center for International Private Enterprise. These organizations 
give concrete expression to our nation's values and also serve our 
strategic interests by promoting political environments that are 
inhospitable to extremists.
    Also, in April, I will be leading a roundtable meeting in 
Washington sponsored by the William Davidson Institute, which is 
affiliated with the University of Michigan Business School. That 
session is likely to generate ideas for helping emerging market 
economies; ideas should be acted upon by governments and the private 
sector, as well.
    For the purposes of this hearing, however, I offer four 
suggestions.
    First, we must make full use of the tools we have.
    Regional institutions such as the EU, the OSCE, the OAS and the 
African Union have real legitimacy and an ever-growing commitment to 
the spread of democratic values.
    The movement toward a Community of Democracies, launched two years 
ago in Warsaw, can become an important defender of democratic norms. We 
should back it vigorously as it prepares to reconvene this fall in 
Seoul.
    Second, we should help nations in transition. On every continent, 
there are young, vulnerable democracies, beset by problems of crime and 
poverty, weak institutions and civil strife.
    We cannot do everything, but we can do far more than we are now to 
aid deserving governments and strengthen civil society.
    This matters, because we are at a pivotal point. The future 
direction of countries such as Indonesia, Nigeria, Zimbabwe, Colombia 
and Ukraine are all in doubt. Their fate will do much to determine 
whether the democratic tide remains a rising tide around the world.
    Third, we should not be shy about encouraging democratic reform in 
nations that are not yet free. There are skeptics who say this is 
inappropriate and that our efforts are doomed to fail.
    Of course, if skeptics were policymakers, Slobodan Milosevic would 
still be in power, instead of on trial for genocide.
    Those who argue that certain countries are not suited for democracy 
are wrong, because no nation is suited for dictatorship.
    With that principle in mind, a special focus is needed on 
democratic development in the Middle East. Especially after September 
11, there can be no denying that terrorism thrives where thinking is 
controlled, debate discouraged and the exchange of information viewed 
as a threat.
    I know that at least some regional leaders understand the need to 
adapt their societies to make room for competing voices and expand the 
public's role. We should do all we can to encourage this approach, 
while recognizing that not every democracy will look the same.
    Finally, we must not allow our opposition to terror to dilute our 
support for human rights. There is nothing more tempting to a dictator 
than to smear opponents with the terrorist label. Nelson Mandela, 
Vaclav Havel, Kim Daejung, and Aung San Suu Kyi were all jailed as 
terrorists, and are now justly hailed as heroes.
    In an autocracy, radicals exploit the discontent of those who feel 
powerless, sparking violence that is then used to justify repression. 
In this way, terrorists and dictators validate each other while 
innocent people pay.
    Our goal should be to break the vicious cycle by supporting those 
who advocate a path between extremism and authoritarianism. This path 
is divided into many singular trails, but above them all, is the 
guiding star of democracy.
    Mr. Chairman, Senators, the battle against terror is not simply or 
even primarily a military battle. It is a struggle of ideas, a conflict 
we cannot win simply by smashing caves and splitting rocks. It is a 
fight we cannot win alone. And it is a confrontation that depends not 
only on our ability to define what we are against, but also what we are 
for.
    In his State of the Union address, President Bush used dramatic 
language to summarize what we are against. But he also declared that 
America will stand firm on behalf of human dignity and the rule of law, 
respect for women and religious tolerance.
    The President added that we must pay ``whatever it costs to defend 
our country.''
    In this year's budget, he has proposed an increase in military 
spending that is roughly twice the amount we spend on all non-military 
international affairs programs and operations worldwide.
    By contrast, the proposed increase for civilian programs is 
extremely modest.
    I am all for a strong military, especially now. We have to be ready 
to destroy the al-Qaedas of the future. But we must also invest in 
preventing future al-Qaedas from taking root.
    In the President's language, we must do more than oppose evil; we 
must also back the forces of good. That requires a much larger 
investment than his current budget suggests.
    Now, we all know the objections to spending more on international 
affairs. To some, foreign aid will always be a four-letter word. 
Developing countries, we are told, are rife with crooks, and where 
there is no honesty, there is no hope.
    A couple of weeks ago, Secretary Powell testified before this 
Committee. He said, ``We can no longer invest in places where 
corruption is rampant, where you don't have transparency, and where you 
cannot be sure the money will be well spent.''
    I agree with that caution, but that caution should not become a 
rationale for inaction.
    Over the years, we have learned how to design international 
programs that reward merit, while providing incentives for the 
reluctant to clean up their act.
    And I have seen our investments pay off, helping to destroy nuclear 
warheads and safeguard nuclear materials; training thousands of people 
in counter-terrorism; intercepting narcotics; strengthening democratic 
institutions; raising life expectancy; cutting infant mortality; 
defeating small pox; saving and enriching countless lives.
    The time has come to replace the old myth with truth. Our 
international assistance programs are one of the wisest investments we 
make. They are not money down a rathole. They are poison down the 
snakehole of terrorism; helping to choke off the hatred, ignorance and 
desperation upon which terrorism feeds.
    There should be no more excuses. After all, we are at war. But 
still we hear the excuses. We are told we can't afford to increase 
significantly our investments in overseas education and family 
planning, battling AIDS and vaccinating children.
    We are told we can't afford to increase our support for 
international peacekeeping or for securing Russia's nuclear arsenal; 
and that promoting democracy must take a back seat to other worthy 
goals.
    To all this I would reply with a diplomatic term of art, 
``balderdash.''
    Today, on a per capita basis, Americans contribute only about $29 
per year through official channels to developing free societies and 
defeating the plagues that undermine them. This puts us dead last among 
industrialized countries.
    In January, the Bush Administration blocked a European initiative 
to pledge increased help to poor nations.
    It is sad, but not surprising, that a recent survey by the Pew 
Research Center found that our country is almost as much resented as 
admired overseas. The reason is not the extent of our power, the 
pervasiveness of our culture, or the tilt of our policies in the Middle 
East.
    We are resented because much of the world believes we are rich and 
do not share, and because they believe we are intent on widening the 
gap between haves and have-nots across the globe.
    In these perilous times, we cannot afford to allow the wrong 
perceptions to take hold. We have to do a better job of telling our 
story. And we have to have the best possible story to tell.
    During World War II and the Cold War, great American Presidents, 
with bipartisan support from Congress, outlined bold and generous 
initiatives to complement our security goals.
    These included the Marshall Plan, the Point Four program, Atoms for 
Peace and the Peace Corps. More recently, with leadership from this 
Committee, we have sustained that tradition through the National 
Endowment for Democracy, SEED, the Freedom Support Act, Nunn-Lugar and 
the Africa Growth and Opportunity Act.
    We need to be bold now in developing and financing a new generation 
of initiatives--with democracy building as a priority--to correct 
misapprehensions and win the battle of ideas.
    By so doing, we can remove all doubt that America stands on the 
side of people everywhere who yearn to walk in freedom whether or not 
they are free today; who believe in tolerance and respect for the 
rights of others; and who want to live in dignity and build a better 
life for themselves and for their children.
    This is how to create a strategic map that is favorable to our own 
citizens and to those across the globe who oppose terror, cherish 
liberty and love peace.
    Thank you very much. And now I would be pleased to respond to any 
questions you might have.

    The Chairman. Thank you very much. In light of the 
attendance, maybe we'll have seven-minute rounds, and then we 
can maybe have a second if possible. Let me begin by focusing 
on democratization in the Middle East--in the Persian Gulf, in 
the Arab world. There have been arguments--in the years I've 
sat here on this committee--that range between, we can't take 
the risk of promoting democracy, because in some of the 
countries in the region, we'll find ourselves with people who 
are totally unfamiliar with the democratic processes. And that 
if democratization and elections were to occur, that the most 
organized would be the most radical and you'd end up with 
popularly-elected but radical anti-American regimes replacing 
authoritarian regimes, who, by and large, are friendly to the 
United States.
    And the counter-argument is that if, in fact, we do not 
participate in the effort to promote democratization in these 
countries, that there is no reasonable outlet--as my 
grandmother used to talk about a pressure cooker--you know, 
those old-fashioned things where they made pot roasts, and 
literally the steam--it gets so hot the steam would come out 
instead of the lid blowing off. And the argument is the same--
the functional equivalent of that is democracy allows an outlet 
for people who feel aggrieved or disadvantaged. And absent it, 
they find other ways--usually violent ways--to express their 
discontent.
    Talk to us a little bit about, delicate as it may be, 
democratization in Saudi Arabia, democratization in the 
Emirates. Talk to us about that. What are the things we balance 
when we embark on that course? What are the down sides? What 
are the up sides?
    Secretary Albright. Well, first of all, I think we have to 
understand that democratization is a long-term process. And I 
think we always--even in this country, democracy is not an 
event. It is a process that goes on that is complicated and 
that has to have a variety of sources to it and changes all the 
time.
    I happen to believe that we actually are all created equal 
throughout the world and that everybody wants to be able to 
have a chance to run his or her own life at some level.
    Now, on democratization in the Middle East, there are 
processes that are taking place. And I'm now chairman of the 
board of the National Democratic Institute, and we have 
programs in Yemen and Bahrain that basically are complementary 
and requested by the governments that are there who want to try 
to institute some kind of change.
    I think the question always comes down to how rapidly this 
change takes place, and it is that process that is hard to 
manage. But you can't do it if you don't begin it. And in 
conversations that I had with the Saudis and with many of the 
other leaders, they were aware of the pressure-cooker aspects 
within their societies, and I think we just have to begin down 
that road and not decide that stability is the best thing. 
Because ultimately those regimes are unstable. And so I agree 
with the latter point that you made about moving on 
democratization. And I think it has to be slightly different 
everywhere. There isn't just the American model. But it's based 
on the premise that people want to run their lives.
    The Chairman. I was recently in Bahrain, and the current 
prince was kind enough to put together a luncheon for me with 
military leaders as well as--and the CNO, Chief of Naval 
Operations of the United States, was there, as well, and even 
some religious leaders. And he laid out his--he's a young man, 
in relative terms--and he laid out his conviction that there is 
a need for increased democratization in his country and around 
the world, but in the Middle East in particular. And he 
indicated they were undertaking the first tentative steps 
toward that by some local elections that they were endorsing.
    The first question I asked--I said, ``What do the folks on 
the other side of the bridge think about this?--because, you 
know, literally there was a bridge that connects the two. A 
significant portion of Bahrain's income comes from wells that 
the Saudis have, in effect, bequeathed to them. And he said 
that there is an unease, but he believed that the more 
enlightened leaders there realize it was necessary in order to 
preserve their countries in the long-term.
    What do you hear from other leaders? Is there a 
realization? Is there a notion? Is there a view held among the 
present leadership, that they have to do something, or do you 
believe the consensus is that the status quo will work just 
fine if we just get oil prices up high enough.
    Secretary Albright. Well, I think--and I've had very 
extensive discussions with large numbers of them--that 
ultimately at some point during a conversation they will agree 
that something has to be done.
    What I find very interesting is this group of younger 
leaders--many of whom have been trained in Western countries--
who talk to each other all the time and understand the need for 
change. The question is one of pacing.
    And the other part of this that is not only true in the 
Middle East, but that we have learned about democratization in 
the last decade is, there is something that I call post-
euphoria democracy, where there is not enough of a democracy 
dividend for ordinary people in terms of economic prosperity, 
and that is a part that we have to deal with simultaneously in 
all societies, because unless there is a sense that people are 
sharing in the wealth of a country, they will not be satisfied. 
And that is part of the radicalism.
    So our programs, not alone, but with other democracies, 
help provide the economic as well as the political aspect of 
democratization. And the information revolution is helping us.
    So I think the younger leadership and the need for change 
in some kind of paced way is the only direction to go. And the 
United States ought to be supporting it.
    The Chairman. Thank you, Madame Secretary. Senator Helms.
    Senator Helms. Sure is good to see you again.
    Secretary Albright. Good to see you, sir.
    Senator Helms. We had a lot of fun with you, and you always 
are a very cooperative lady, and we like you a lot.
    Secretary Albright. Thank you.
    Senator Helms. You're one of the few people who, upon her 
departure--I will say to these young folks in the back--in her 
last appearance here, we gave her a standing ovation, and 
that's almost never done in the Senate.
    I have a growing problem about what is the sensible thing 
to do. This past Wednesday, I had lunch over in Georgetown with 
about 1,500 other people whom Franklin Graham had assembled, 
and he had the first lady of Uganda there. And they are doing 
well there, in terms of bringing that country forward, in terms 
of looking after the people and making sure that the people 
understand that they've got to look after themselves, as well.
    She was talking about the AIDS situation. It was terrible 
there when her husband was elected. And she decided, since 
there were no functions for the first lady to perform, that she 
would see what she could do about it. And so she started a 
program of education and all the rest of it. And the number of 
new cases of AIDS has diminished 50 percent since her effort 
there.
    And I run into all sorts of problems. And Franklin Graham--
and I'm not going to make a long speech about him--but he's 
very much interested in the people all over the world. He had 
built hospitals in Sudan. And the corrupt leaders of Sudan have 
blown them up, bombed them. And he's built them back, and they 
bombed them again. Now, I would sort of get a message if I had 
been building hospitals for Sudan and that happened. But 
Franklin, he is worried about the people. Sudan's Government is 
not worried about the people. And that, Madam Secretary, is the 
problem.
    Now, I guess what I'm saying is that I am ashamed of 
myself, because I haven't known how to do more about the AIDS 
situation in Africa. When I was chairman of this committee, we 
talked about it, and I wanted to do something, but I didn't 
know exactly how to begin, and I still don't. And I hope this 
new chairman will lead us toward a solution of that problem, 
because it's going to ruin that whole continent. I can't 
believe it--it's a nightmare to me. I can't believe what's 
happening.
    And I just wonder--when we talk about foreign aid--are you 
absolutely certain it's doing anything like what we say it's 
doing for the people over there, or is it being confiscated by 
corrupt leadership and spent for other purposes? What do you 
think about that?
    Secretary Albright. Well, I think that, on the whole, it is 
used properly. And I think that obviously there are cases that 
are very troublesome that need to be investigated, but that is 
a method whereby the United States and other democracies can 
help--or industrialized countries can help countries move 
forward.
    Mr. Chairman, I'm very glad to hear you say what you said 
about HIV/AIDS, because one of the things that we did was to 
decide that HIV/AIDS was a security problem in addition to 
being a health problem. And I think if we think of foreign aid, 
those two words--I wish we could never use them, because they 
don't go together. People hate saying anything about 
``foreigners'' or about ``aid,'' and when you put them together 
it is a disaster.
    We need to talk about what we do to assist other countries 
in terms of our national interests. And if it requires talking 
about health problems as security problems, then I think we 
should do that.
    And I have testified before, and you all have heard this, 
is we give one penny out of every Federal dollar for 
assistance. I would like to propose something really radical, 
is that we give a penny and a half. It would make a huge 
difference. And if we see issues, like health issues and 
women's issues and--because women are more than half the 
populations of these countries and provide economic strength--
we should see that as a security issue. And I think that will 
help.
    Senator Helms. Well, OK, let's say that we increase what we 
now call foreign aid--by whatever name you call it in the 
future. What would you suggest that our government do about 
rules concerning how the money is used in those countries?
    While you were Secretary of State, how many instances, if 
any, did you have where you knew that the foreign aid money, as 
we call it, had been seized by the corrupt leadership and not 
used for the purposes that it was intended?
    Secretary Albright. I have no particular accounting of 
that, but I do think we did something, you and I together, in 
terms of trying to tie the budget of USAID more closely to some 
of the policies and issues that we were interested in, in terms 
of trying to make sure that it did what it was supposed to do.
    And I think what is required here is accountability and 
that those programs need to be--we need to be able to tell 
where they're going, which is not as difficult or as costly as 
cutting them off. And that is what troubles me, is that we 
would take the hatchet approach and decide that they simply 
don't work, when, in fact, in many countries they do. And that 
is not to say there are not problems. There are definitely 
problems but they need to be worked at and reformed and we can 
create the mechanism to make sure that there's accountability.
    Senator Helms. I've talked about this thing to your 
successor, the present distinguished Secretary of State, and 
it's a problem. It's a problem. Because it's so enormous, in 
terms of its implications and the cost of it and the 
distribution of it, that mistakes are bound to be made, and 
they will be made until it is tightened up, and I don't know 
how to tighten it up.
    Secretary Albright. I think one of the other things that's 
important to think about are public-private partnerships where 
in fact NGOs can also be very helpful, various companies, 
American corporations, that, in many ways, through their 
efforts to have some social responsibility, are being very 
helpful also.
    And if I might say, I also am affiliated with the Davidson 
Institute at the University of Michigan Business School, and we 
are going to be doing a seminar up here to try to get a 
combination of getting corporations, government officials, 
NGOs, and academics together in order to talk about how to help 
emerging economies deal with the issues that is specific to 
them, and also how American assistance can be given in a more 
accountable way.
    Senator Helms. Well, one final question. Excuse me for 
running over.
    The Chairman. Please, go right ahead.
    Senator Helms. What do you think about the government 
utilizing the talents and the knowledge of people like Franklin 
Graham? And there are a number of people who are doing great 
work overseas with limited funds. Is there any way you can use 
the Franklin Graham kind of a person?
    Secretary Albright. I know that when I was Secretary you 
and I talked about this. And, as I'm no longer a government 
official myself, I believe that one should use people that are 
outside the government in order to strengthen our positions and 
broaden our reach, because people, I think, that are on the 
ground as Franklin Graham is have a great deal of knowledge. 
And so I think that we should use everything and everybody that 
we can.
    Senator Helms. Well, I led you into that answer by asking a 
question, and I thank you for it
    Secretary Albright. Thank you.
    Senator Helms. Thank you, ma'am.
    The Chairman. Thank you.
    Senator Nelson.
    Senator Nelson. Mr. Chairman, I would defer to Senator 
Lugar. But I certainly am curious to know the answers to the 
questions that you have put forth about why would these polls 
reveal that so many in those countries in Central Asia and the 
Middle East would not believe what, in fact, was the reality of 
the attacks.
    Secretary Albright. I think that clearly the issue of 
information at the moment is very important, and we need to do 
more about public diplomacy and to tell the real story.
    When I was Secretary, we tried very hard, I think, to 
achieve a better understanding of Islam. I believe that we 
really are ignorant about it. And so I still have a copy of a 
brochure that we were going to put out on Islam. It is 
somewhere at the State Department at the moment. But what it 
basically does is give a primer, because I'm just stunned at 
our lack of information.
    I have done an outreach program. We had dinners at the 
State Department with American Muslim leaders. And I think that 
is part of the issue, that there is a whole question now about 
how information is used. And it is a battle of ideas, and it's 
hard--I read the poll this morning. It's also in the Financial 
Times. It's stunning.
    And I think it just proves our lack of information and the 
wrong use of information and that we are in a battle--a major 
battle of ideas, which is why I make the point that I support 
what we're doing militarily, but it's too unidimensional. We 
have to have a much larger program about how to deal with 
problems of perception like that.
    And it won't change overnight. I think that's where we have 
to decide, that battle is as long--is as much a part of the 
long term battle as the military part.
    Senator Nelson. And that's where I think that the present 
administration was so wise when they started the effort in 
Afghanistan, that they had a diplomatic component as well as a 
military component and a humanitarian component. And the first 
day that we were dropping bombs, we were dropping food. Could 
you comment on the fact that--in your opinion, if it is fact--
that in North Korea, we have a hostile government, yet we have 
clearly gotten through to the hearts and minds of the people 
that are starving, because they know the food has come from the 
United States. And does that effort tell us something about 
perhaps some of our success in Afghanistan and what we ought to 
be doing elsewhere in that part of the world.
    Secretary Albright. Well, the issue of food is always 
difficult, in terms of whether we use it as a political tool. I 
think that we usually give food to the World Food Program for 
humanitarian reasons, and it's labeled as coming from the 
United States on those cases. And I think that we need to be 
known as the generous country that we are. And I think it was 
very wise to drop the food at the same time as we were bombing.
    But what I am more concerned about is that we are letting 
that part of the program be done by others. The way that it is 
described, if I might say so, is that everything but military 
work is women's work, which is I think it's important, that 
basically I do not agree that nation building or whatever word 
you want to use, if people don't like that word anymore--
creating--trying to take up the vacuum is the most important 
work that work that needs to be done now. Our military activity 
has to be followed up by diplomatic and humanitarian work, 
otherwise, it has been wasted. And it can't be done by others. 
It has to be done by the United States, in cooperation with 
others. And so I disagree with somebody that I'm sometimes 
known to be friends with, Margaret Thatcher, who basically 
said, ``Let somebody else do it.'' We cannot. We need to be a 
part of the rebuilding of Afghanistan and, thereby, maybe 
change some of that perception that is in these polls.
    Senator Nelson. Mr. Chairman, I didn't mean to take all 
this time, because I really do want to give it to Senator 
Lugar, who is one of the world's experts in this area. But I 
just want to say that when I went over there during the 
Christmas break, in a delegation led by Senator Lieberman and 
Senator McCain, I was just stunned. Every one of those heads of 
countries in that region of Central Asia, the first thing out 
of their mouth was, ``Thank you, United States, for helping us 
rid ourselves of terrorists.'' And the second thing out of 
their mouth was, ``Please don't leave.'' It was extraordinary.
    Secretary Albright. A great event. We need to stay. We need 
to finish the job, just as we needed to in the Balkans. We have 
to have a sustained effort that is not just a quick fix.
    Senator Nelson. Mr. Chairman, I'm going back over the 
Easter break, assuming you give permission for me to go----
    The Chairman. You have permission.
    Senator Nelson [continuing]. I'm going back to Afghanistan 
and again to Pakistan. And this time I'm going to India, 
because I want to understand something of extraordinary 
interest of the United States, the potential clash and helping 
to avoid that clash. Thank you.
    The Chairman. Thank you very much. Is the world's leading 
expert--
    I share that view, I might add. Senator Lugar.
    Senator Lugar. I thank you all. Secretary Albright, I 
wanted to ask a difficult question. It's difficult because, in 
spite of the fact that you are no longer Secretary of State, 
your words are measured and analyzed carefully abroad. I was 
intrigued by an article that Tom Friedman wrote in the New York 
Times this morning about Saudi Arabia. Now, a lot of our 
discussion of democracy has surrounded countries in the Middle 
East. Prominent among those, with whom we have worked closely 
for many years, has been Saudi Arabia. But Tom Friedman's view 
is bleak. He suggested that Saudi Arabia might follow the path 
of the former Soviet Union or China.
    If they follow the Soviet pattern, he suggested Saudi 
Arabia would have a theocracy or a group of religious people 
that enforced the laws--but with what he termed a corrupt civil 
government--namely, a king and 50,000-some princes. This group 
will have benefited from the system and formed sort of a cadre, 
as he suggested the Communist party did in the Soviet Union.
    Now, if they go that route, Friedman's prediction was that, 
at some point, model is likely to crack open. This will be due 
to the fact that communications are opening up in the world, 
plus a war going on in the area in our fight against terrorism. 
The result of the fall of the system are not clear. Maybe 
democracy but maybe not.
    Now, in the Chinese model, he suggests that the Chinese 
leadership has accommodated capitalism, trade, foreign 
investment. It is a big country, people are able to get some 
steam out of their systems without repression from time to 
time, but nevertheless a very diffuse situation. Such a system 
doesn't build up to a crescendo, and is broad enough that it 
doesn't split apart.
    But in both cases, the Russian and the Chinese model, the 
system is based on controlling group plotting to stay in 
complete control.
    Now, in the midst of this scenario, we're discussing how we 
move toward democracy. And thank goodness there are cases that 
are less difficult than the one that Tom Friedman has 
suggested. Saudi Arabia is an important case. Because of the 
support that went to al-Qaeda and various other enterprises. 
Saudi Arabia is not going to be very congenial with the United 
States or democracy.
    What is the prescription for Saudi Arabia? How do we work 
with people that all of us know, that we are still working with 
diplomatically, but we can see tremendous challenges 
approaching? Regardless of whether Friedman's ideas are correct 
or not, it presents two scenarios on the future of the U.S.-
Saudi relationship over the course of time.
    So I ask you, as a long-time advocate of democracy and a 
Secretary of State on top of that, what do we do? How do we 
make a difference? And is it possible for us to do so?
    Secretary Albright. Well, first of all, I thought Tom 
Friedman's article was very interesting, and he said, ``Come 
back to me in five years,'' because he didn't have an answer. 
But I also believe the following--first of all, that our 
relationships with Saudi Arabia are among the most complex that 
we have, and that obviously the country is important to us for 
its strategic location and its resources. And at the same time, 
having it completely--and democracy is importance to us, but 
having it completely disintegrate and fall apart is not in our 
interests.
    I also believe this--and this is from my own experience--
that often the public statements of the Saudis are not quite 
what the private ones are, that they are actually quite helpful 
in a series of issues. And so I have great respect for Crown 
Prince Abdullah and also for an understanding that they are 
beginning to have about the fragility of the situation that 
they do have.
    And either model, frankly, is, if you think about it--and I 
say this with the highest respect for you. You are part of what 
we did with the Soviet Union and Russia, which was to--after 
the sclerotic situation it was in, to help the devolution of an 
empire. We have never--that has never been done before, 
especially when the empire is your adversary. And we figured 
out how to work with various groups in Russia and dealt with 
some of the problems and managed, though it wasn't always an 
upward trend, to try to figure out how to deal with that. We 
have that opportunity again.
    With China, I always have believed and testified to this, 
that while I disagree with their Communist system totally, that 
we need to be engaged with them and keep raising the issues 
that we always raise with them on human rights and religious 
tolerance. And so even if you agree that those two models are 
the models, it doesn't preclude American action.
    And basically we need to understand that Saudi Arabia is 
important to us, complicated, and that we don't want it to fall 
apart totally, and that we're in for the long haul, and that 
they need to also understand the changes. And some of those 
younger princes were students of mine, frankly, and I think 
that many of them are different--we need to work on the younger 
generation, is my sense.
    Senator Lugar. I appreciate your response. I think you are 
right to be optimistic and hopeful. I think there are real 
possibilities in staying engaged--obviously in Russia and in 
China. I appreciate your drawing from your own personal 
experience with Saudi Arabian leadership, because it's crucial 
that we think about this.
    The disturbing thing about the Friedman article is the 
concluding line, ``Come back in five years,'' because that was 
the period of time he thought that the Russian model for the 
Saudis might disintegrated. I'm not really clear what would 
happened if the Chinese model applied.
    But both of these models are changing ones. As you point 
out, these are works in process, we won't be major forces of 
influence, but we can be. And I agree with your thought that 
our impetus toward working toward democracy is crucial, in 
terms of paying the cost of this, in terms of the expense of 
diplomacy, of the ways we might engage in creative ways. So I 
appreciate your testimony. I thank you for your responses.
    Secretary Albright. Thank you. Senator Lugar, I feel very 
strongly that in this very difficult time we have to be 
optimistic. This is a difficult time for our country, and we 
need to ask questions, and we need to be optimistic, because 
otherwise we're not going to get through this. And by viewing 
the processes of developing one in which we can play a positive 
role, I think, is where we ought to be headed.
    Senator Lugar. Thank you, Mr. Chairman. It's good to see 
you again, Ms. Secretary.
    Secretary Albright. Nice to see you, sir.
    The Chairman. Senator Feingold.
    Senator Feingold. Madam Secretary, we had a chance to work 
together on a lot of issues, including issues concerning 
Africa. And I now have the chance to chair the African Affairs 
Subcommittee, and I'm trying to hold a series of hearings. We 
did one already on Somalia--but the theme of the hearings is to 
consider what might be called manifestations of failed states 
in Africa--problems posed by piracy, illicit air transport 
networks, trafficking in gems, drugs, people, arms. These are 
attributes that make a lot of the regions of Africa attractive 
to terrorists and other criminals, but we find similar 
weaknesses and problems in places throughout the world.
    Given the leading role that you've played in addressing 
these kinds of threats in the past, how serious do you think 
the dangers are today? And how would you compare these, perhaps 
you could call them, shadow threats to the more open threats 
that we have today? And what can we do to, sort of, more 
consistently address this phenomenon of failed or potentially 
failing states?
    Secretary Albright. Well, first of all, I would like to 
thank you for all the leadership that you've taken on issues on 
Africa and your visiting there and really dealing with these 
issues on a consistent basis.
    I think that, first of all, I would also hope that you talk 
about the good-news stories in Africa, because there are quite 
a few of them, and I think we always have a tendency to see 
everything as going downhill there, when, in fact, there are 
some good-news stories in Botswana and Mali and various places. 
I think that these shadow threats are very real, because what 
they do is undermine the fabric of society and are the kind 
that need to be dealt with through a consistent effort by the 
international community. The issues of trafficking and the 
blood diamonds and issues of various ethnic disputes that then 
become riled up in terms of poverty in addition are all the 
issues that we need to pay attention to.
    The failed states, to a great extent--and we talked about 
Somalia in that way--had to do with the fact that there was no 
institutional structure. And I think that we need to pay more 
attention to trying to assist in filling vacuums in political 
structure. That's the hard part. That's--you know, frankly, 
that is where we were accused of nation building, which is not 
a term we actually use, but it is a--I think we have to help in 
the institutions. And that is one of the reasons that I think 
that the Endowment for Democracy is so important in terms of 
developing judicial systems and understanding that it's a long, 
sustained process--and the rule of law that needs to go into 
these places.
    But it's mostly an institutional structure issue, and then 
poverty on top of it. And all those are issues which require 
sustained attention. I think we unfortunately have the tendency 
to try to have quick fixes, and they simply don't work in a lot 
of the situations that you're talking about.
    Senator Feingold. I appreciate the point about the nation 
building, because I think one of the confusions that's going on 
is--you know, President Bush, when he was campaigning--I heard 
him say that he had concerns about nation--the use of the 
military for nation building. But that somehow is being 
transferred to the idea that we shouldn't help in so many other 
ways with nation building, and I don't think that those two 
things are logically connected.
    Somalia is a great example, where, you know, I, along with 
others, thought that this was not, obviously, a good place for 
us to be militarily anymore. But according to what we heard at 
our hearing, we just, you know--
    Secretary Albright. We left.
    Senator Feingold. Everybody just pulled out of there 
completely. And we've reaped some of the consequences of that.
    And I'm glad you said what you did about the success 
stories in Africa. They remember your visit there very well, 
very fondly. And, in fact, I was in Mozambique a few days ago--
obviously not a hundred-percent-success story, but even with 
the flooding that occurred--and, of course, we have helped on 
that--they have managed to get themselves in a very positive 
economic-growth direction and solve many of their problems. So 
I appreciate those comments. We have to keep that balance in 
mind.
    Let me ask you a different question about our human rights 
policy. It's similar to a question I asked Secretary Powell. 
The State Department is supposed to be releasing its annual 
human rights report now, and this is, of course, an important 
annual event. It provides an opportunity to consider how we 
should respond to some of the delicate diplomatic dilemmas that 
are often raised by these reports. But it's particularly 
difficult now because of the reality that we are having to work 
with a number of countries that are helping us with our fight 
against terrorism. But at the same time, we can't completely 
ignore or stop referring to some of the human-rights problems 
that those same countries still have.
    How difficult will it be, in your opinion, to engage in a 
constructive dialogue over human-rights practices with some of 
our new partners, particularly in Central and Southeast Asia 
and the Middle East, without somehow destabilizing our 
coalition against terrorism or undermining the seriousness of 
our human-rights concerns?
    Secretary Albright. I think you have raised an absolutely 
valid question as we go forward here, because we cannot back 
down on our principles. When we were talking about the 
importance of democratization in these countries, human rights 
obviously is a major component. And I hope that these reports 
are put out and that no punches are pulled and that we are 
able, at one and the same time, to deal with the countries 
because we have to and should, for pragmatic reasons. But I 
think they would be shocked if we simply stopped talking about 
our human-rights concerns, and I am very glad that, as I 
understand it, President Bush did raise issues like that when 
he was in China.
    And I think we have to be true to ourselves, because it 
isn't just enough to have military victories. We have to 
understand the kind of world that Americans are most 
comfortable in, where our national interests are served by 
countries that respect their citizens. Because if they don't 
respect their citizens, they don't respect anybody else. 
Chairman Helms talked about the Iraqis gassing their own 
people. And so I think we need to stick with the program on 
human rights. It's a basic U.S. realpolitik national interest 
issue.
    Senator Feingold. Thank you, Madam Secretary. And finally, 
the trial of Milosevic has been attracting a lot of attention. 
I'm sure it's caught your attention, because he's suggested 
that you should be called as a witness.
    But seriously, the Milosevic trial could be an important 
mechanism for spotlighting the crimes against humanity that 
were committed in that part of the world. And many have also 
noted, and I tend to agree, that this is being watched by many 
around the world as we struggle to bring tyrants, and even 
terrorists like Osama bin Laden, to justice for their crimes.
    Now, last week I got a wonderful opportunity to visit the 
other international tribunal in Arusha, the Rwandan tribunal, 
and I was pleased to see that the Rwandan tribunal, despite 
having some serious challenges, is making great strides in 
holding some of the greatest criminals of the last century 
accountable for their crimes. And we also see, of course, that 
the special court in Sierra Leon is coming into existence, 
which is another precedent for accountability in the African 
Continent.
    I think, so far, we can say that these mechanisms are 
proving to be pretty credible and effective. But how can we 
also make sure that they're instructive--in other words, that 
they send a real message to those who would commit these kinds 
of crimes?
    Secretary Albright. Well, I must say, one of the first 
votes that I took at the U.N. was to create the war crimes 
tribunals, and I'm very proud of that. And people thought 
they'd never work. I mean, they thought we'd never get the 
judges, that we'd never get the prosecutors, that we'd never 
get the indictments, that there would be no sentences. And all 
of that has been proven wrong. And so I think it was one of the 
major initiatives that we took that I think works.
    I think what has to happen--and you're absolutely right, 
it's the instructive part of it now that we have to focus on--
is to talk more about the positive aspects of the deterrent, if 
it's possible, to begin to draw some lessons, and to understand 
that ultimately the only way that our interests are served is 
when the rule of law is abided by in a variety of countries and 
in the international sphere which, frankly, is why I hope very 
much that we continue to honor treaties and understand that the 
United States is most protected by being part of an 
international system where there are countries that do things 
in the same way that we do.
    So the rule of law lessons out of the war crimes tribunals, 
I think, are very important, and we need to make that--give 
that message out loud and clear.
    Senator Feingold. My time's up, but I am grateful for your 
leadership in this area. And all I can tell you is--you know 
this better than I do--it's a lot harder to make it work in 
Arusha, Tanzania, than in The Hague, so I was very impressed 
with what----
    Secretary Albright. And we had a lot of problems there. We 
really did. But we stayed with the program. And I think that is 
the lesson here, is that you might not have an immediate 
success on these variety of issues--it's different from 
bombing; you don't get immediate success--but in the long run, 
the payoff is really important.
    Senator Feingold. Well said. Thank you, Mr. Chairman.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    Mr. Chairman, thank you for calling this important hearing. I am 
particularly grateful for the opportunity this hearing provides to 
discuss some of the specific diplomatic and humanitarian efforts that 
will be necessary to build a more secure and prosperous future. And I 
appreciate your leadership in recognizing that a secure future will 
ultimately depend on our ability to promote respect for human rights 
and democratic governance in states across the globe. But as we begin 
what must clearly be the first of many such dialogues on this topic, I 
think we should also pause to consider some of the larger implications 
of our efforts to promote human rights and democratic governance.
    To begin, it is important to recognize that we do not have the 
capacity, nor the financial resources, to act militarily against all 
bad actors around the globe. As a result, we will need to make tough 
choices about our diplomatic, humanitarian and military priorities in 
the coming months and years. But we should also recognize, within the 
context of such difficult security decisions, that an increased 
commitment to global health, economic development, human rights, and 
democratic governance clearly represents a sound long-term investment 
in our own national security, costing less in both financial and 
humanitarian terms than a crisis driven response to some future 
humanitarian disaster, and far less than the cost of a necessary 
military intervention in a dangerously failed state.
    Second, we must also focus on the very real threats posed by weak 
or failed states around the world, and the criminal networks within 
those states that provide a safe haven for terrorist activities. As 
Chairman of the Subcommittee on African Affairs, I have been exploring 
those risks as they are encountered on the African continent, including 
manifestations of lawlessness such as piracy, illicit air transport 
networks, and trafficking in arms, drugs, gems and people. The terror 
that accompanies those shadow networks also accounts for many of the 
most violent human rights practices across the continent. Indeed, the 
simple fact of the matter is that those shadow networks in Africa and 
elsewhere fuel untold suffering, inhibit legitimate economic 
development and provide a breeding ground for even more dangerous 
terrorist activities. Their demise must become a human rights priority.
    Third, we must also find a way to make human rights matter in this 
new environment. We do ourselves and our allies no favor by ignoring 
human rights abuses in the interest of waging a war on terrorism. This 
will demand a frank discussion with some of our new coalition partners 
over their poor human rights records. Indeed, in the coming phase of 
the assault on terrorism, we must demand greater attention from many of 
our new partners to human rights and democratic governance as a 
necessary condition for continued alignment with the United States. And 
while we have clearly benefitted from the initial assistance and 
strategic locations of some of these partners, we must also recognize 
that we will never be able to rely on despotic regimes. In a very 
meaningful sense, our current struggle to create a more secure global 
environment will never be accomplished so long as any despotic regimes 
suppress the rights and aspirations of their citizens, regardless of 
whether they have offered us their support in the global war against 
terrorism.
    And in this new human rights context, we should recognize that a 
coherent human rights policy must promote the right to a healthier and 
more prosperous life. As so many have noted in the months following 
September 11, vast pockets of poverty, sickness and despair in 
developing states provide dangerous breeding grounds for anti-American 
sentiment, and a fertile operational base for terrorists and criminals. 
From where I sit today, I believe this threat of global poverty 
provides perhaps the most overwhelming challenge to us in shaping an 
effective human rights policy for our future.

    The Chairman. Madam Secretary, I was looking forward to 
Milosevic calling me as a witness. As you recall----
    Secretary Albright. It's a great honor, isn't it?
    The Chairman. Yes. He did mention me. As you recall, I came 
back, when your predecessor was--you were at the U.N.--I 
remember you calling me, and you asked me, did I really say to 
him, I think you're a G-D war criminal and you should be tried 
as one. And so he hasn't called me, but I'm looking forward to 
that. I'd love that opportunity.
    The Chairman. Senator Chafee.
    Senator Chafee. Well, thank you, Mr. Chairman, for calling 
this hearing. You're not shy about taking on difficult issues. 
And promoting democratization, poverty alleviation, and human 
rights is certainly a difficult task to take on. And when I saw 
the agenda, I did think of when Kofi Annan, the Secretary 
General of the United Nations, accepted the Nobel Peace Prize 
along with the Institution of the United Nations. He said, 
``I've got only three priorities,'' when he accepted in Oslo a 
few months ago, ``alleviating poverty, promoting democracy, and 
preventing conflict,'' as the agenda for the United Nations.
    We haven't heard too much this morning about the United 
Nations, and I'm curious, Madam Secretary, about your 
experience with the United Nations and your thoughts as to what 
they can accomplish in this arena. I think, through the course 
of the whole morning, the United Nations only came up in 
Senator Feingold's questions on the war crimes tribunal.
    But what role can the United Nations play? What's your 
experience with dealing with them? I'd be interested in your 
thoughts.
    Secretary Albright. Well, thank you very much. I think that 
clearly the United Nations goes through ebbs and tides, in 
terms of how the United States views it and whether it can, in 
fact, be useful in pursuing--dealing with problems that are the 
priority issues and then pursuing a variety of issues.
    I'm very glad that Senator Helms came back in, because it 
is thanks to the work that Chairman Biden and Senator Helms 
did, we were able to actually pay what we owed the United 
Nations. And it changes the possibilities of what effect we can 
have there. So that has put Ambassador Negroponte in a much 
better position than Ambassador Holbrooke and I were in when we 
were there. And these two gentlemen have a great deal to take 
credit for, in terms of the success that we had for that.
    I also must say that I think that there was some question 
originally as to whether Kofi Annan would be a good Secretary 
General. And then he was reelected for a second term 
unanimously. So I think he is a great choice. And having the 
Nobel Prize for him and the organization is a great testament 
to the work that he has done.
    I think that the U.N. is a very useful organization that 
can help in the pursuit of our objectives. It doesn't always do 
what we want. As I've said publicly, there's some people who 
don't like it because it's full of foreigners, but that can't 
be helped. So I think that we have to use it as an organization 
that has the ability to have the voice of the international 
community speaking on issues, whether they are on issues of 
security and peace, on issues of humanitarian and health 
issues. And then Senator Helms was talking about HIV/AIDS--I 
think Kofi Annan and that group are taking a huge role in that 
now. The World Health Organization is working on that whole 
host of issues.
    They deal on these underlying issues that we are trying to 
deal with. And if we decide that the U.N. can't help us, we are 
leaving out one of our most important tools, in terms of our--
the toolbox that we have for this.
    Senator Chafee. Thank you very much. Yes, I would hope 
they'd be successful. If not, retool them, or whatever, but 
they're there, and they've been there since 1948. Is that 
right?
    The Chairman. Senator Brownback.
    Senator Chafee. I have one more question.
    The Chairman. Oh, I'm sorry. I thought you yielded. I beg 
your pardon. No, no. You have plenty of time. I beg your 
pardon.
    Senator Chafee. You said, that you believe firmly in 
increasing our foreign aid which is the lowest of the 
industrialized nations. And in the past administration--and I 
don't mean this in any critical way--what kind of inroads did 
we make in the effort to increasing that and not being last? 
And what were the dynamics? Is it just so politically 
unattractive to proceed down that road? Or what were the 
impediments or roadblocks to trying to raise us above such an 
embarrassing position among the industrialized nations?
    Secretary Albright. I think that it--first of all, there is 
a reality check, in terms of the entire budget process, and we 
were operating under caps at that time, and you have to do a 
lot of, kind of, horse trading, I think, in terms of where 
you're putting your money. State Department wanted very much to 
have a continued increase of some kind in our foreign aid.
    But at the same time, we had a budget that we had to worry 
about, the State Department operating budget. We had to put in 
a lot more money than had ever been put in on security for our 
embassies. And I kept saying that I hated the choice that I had 
of either having completely secure embassies with nobody in 
them doing nothing, or having embassies that were less than 
perfect where people were working. And it's a Hobson's choice 
that one shouldn't have to have. Our diplomats have to be 
secure, but they also have to have the money to do their 
programs.
    But part of the problem is that I think that there is an 
inequity in the budget system the way it has worked out. I wish 
that we would begin to think of this more--I know this comes up 
fairly frequently--but kind of a national security budget, that 
we look at all these pieces together and it's not a tradeoff 
between what you do on the State Department foreign assistance 
side versus what you do on the military side. These need to be 
done together.
    But there is--it's not a simple process. And I had a 
conversation with President Clinton every Christmas Eve, and he 
always upped the budget. But it was very hard, and the whole 
system of this is very complex. And foreign assistance is 
always kind of at the last.
    And then we're operating against a myth among the American 
public--and I've been out there a lot. People actually think we 
give, like, 25 percent of Federal budget for foreign 
assistance. And then when I say it's a penny, they're kind of 
surprised. So I think that we're operating against a lot of 
myths and some systemic issues.
    Senator Chafee. Good. Well, I do like your quote, ``It's 
not money down a rathole. It's poison down a snakehole of 
terrorism helping to choke off the hatred, ignorance, and 
desperation upon which terrorism feeds.''
    Secretary Albright. Thank you.
    The Chairman. Senator, you have more time.
    Senator Chafee. I'll give it to Senator Brownback.
    The Chairman. Alright. Well, thank you.
    The Chairman. Senator Brownback.
    Senator Brownback. Thank you very much, Mr. Chairman. 
Welcome, Madam Secretary, good to have you here. Sorry I didn't 
get to hear your direct testimony earlier.
    But I would like to focus you, if I could, on the Islamic 
region of the world and the pursuit of democracy in that area. 
President Bush, in his State of the Union message, got a lot of 
comments regarding the ``axis of evil,'' but didn't get many on 
his statement on pushing education and democracy in the Islamic 
world, which, in my estimation, was a far bigger policy 
statement to make in that speech than the ``axis of evil.''
    I want to focus you in on that region. It seems as if 
democracy has had difficulty really getting a hold in some 
places. Turkey has been a longstanding democracy kind of 
insured by the military, and the military will step in from 
time to time. But what do you think we need to do to really 
push democracy in the Islamic world? Would you think that our 
efforts should focus on funding more educational efforts in 
that region? Is it us being just very bold and aggressive on 
human rights and religious freedom, tolerance, the things that 
we've stood for everywhere around the world--that we be more 
aggressive on that publicly by the President, by the Secretary 
of State in that region?
    My estimation is we're at a point in time where we're going 
to go at this seriously. It represents a great deal of 
challenge to us in that it could be destabilizing for a period 
of time in that region. It could be difficult for us and could 
make some allies in the region very nervous and quite 
uncomfortable. Yet it's the time to do it.
    I think we've supported a number of regimes in the region--
Republican and Democrat administrations--that are not 
democratic, that are not respectful of human rights, and that 
in some cases we're starting to harvest a resentment of the 
population for us being the supporters of monarchs and 
dictators, similar to a position that we got into in Central 
America and South America in the 1970's where we were 
sponsoring some people not democratically elected, but they 
were against communism. We're against communism. So that's good 
enough for us. But it wasn't good enough for the people in 
Central and South America, and a great resentment built up. I 
think we're building some resentment in a region of the world 
that we've been very active, very invested, but we haven't 
pushed our basic values.
    And I'd appreciate your thoughts of what you think we 
should do at this moment in time.
    Secretary Albright. Let me just say that I think one of our 
first issues is that we are not very knowledgeable about Islam. 
And I mentioned that we had tried in the State Department to 
become--to put out a primer and really get more sensitivity to 
understand what Islam is. And I do think that that is an 
important aspect.
    Because, for me, this is--what's happened here is not so 
much a clash of civilizations but a problem between what 
civilization is and what isn't civilization. And I think we 
just need to have a better--for starters, a better 
understanding of Islam.
    I do very much favor putting money into education, because 
part of the problems is that some of these schools are 
basically places for people to learn hatred. And we have to 
begin at a very primary level, literally, in order to change 
the--to help an educational system that doesn't teach hatred.
    I also have not--you know, there's nothing easier than 
being out office, but I have not lost the sense of the 
difficulty that any Secretary of State has, in terms of 
balancing issues that require a certain amount of pragmatism, 
that you don't always have the exact friends that you want, and 
that you have to look at the overall situation that you're 
dealing with.
    Pakistan is a very good example. We had a lot of sanctions 
put on automatically as a result of legislation, and we had to 
change a little bit and keep--but I don't think it means that 
we shouldn't push Musharraf to follow through on a democratic 
schedule and that we shouldn't worry about human rights. We 
need to follow through on what is true to us and not pull our 
punches.
    Now, I also think--and you have to understand that this is 
not a cookie-cutter approach. Not every country can be dealt 
with exactly the same, in terms of pressing a democratic 
agenda. And one has to have certain priorities and timing and I 
think here, a statement that I'd like to make is that we can't 
see the world again as if we were in a cold war situation. We 
can't substitute terrorists for Communists and decide that they 
are monolithic. We made some mistakes during the cold war by 
thinking that all the Communist countries were the same and 
that within each country it was the same.
    So not every Muslim country is the same. The problems 
within them are different. And so we can't just decide that 
they're all against us and that we are not sensitive to the 
various differences within them and then operate in a very 
surgical way. Some countries, we're not going to be able to 
push because of their strategic position at the moment, but it 
doesn't mean that we never talk about it. It doesn't mean that 
we don't push on the issues that are important to us. It's a 
matter of timing and priorities, and we shouldn't give up who 
we are, because in the end we lose.
    Senator Brownback. What about post-Saddam Iraq? Wouldn't 
it, in your estimation, be one of the countries most open and 
able to accept democracy given its educated population? It 
strikes me that there is a real chance for a strong democracy 
to take hold.
    Secretary Albright. Well, I feel so sorry for the people of 
Iraq. They don't deserve Saddam Hussein. And we have not been 
able to have enough contact with them.
    I think one of the issues we need to think about in terms 
of what we do about Iraq, is what's next? I mean, how are we 
going to deal with the Kurds? What happens with the Shias? I 
would appreciate it if we had some kind of a better view of 
what the Bush administration sees for a post-Saddam Iraq.
    But I think they do have an educated population. I think 
there is a real question, given the propaganda that Saddam 
Hussein has engaged in for the last 20 years, is that basically 
he--there is a lot of--going to be a lot of anti-American 
feeling, and we have to figure out how to deal with that.
    Senator Brownback. Mr. Chairman, could I ask one quick 
follow-on here?
    Is the Turkish model a good model for the Islamic 
countries? We have a strong military basically trying to ensure 
and press forward for democracy. Is that a type of----
    Secretary Albright. Well, I think the Turkish model is a 
very important and interesting one. The role of the military 
has shifted back and forth at various times, and it's very 
important to have civilian control over the military. But the--
you know, the Ataturk revolution and the modernity that Turkey 
has been able to accept, I think, is very important, which is 
one reason that I think we need to work more with Turkey 
generally. You know, we--one of the reasons that it's important 
to resolve the Turkish-Greek issues and get Turkey more 
involved in the EU and various organizations. Turkey is a very 
interesting model. Very interesting. But the military has to be 
controlled by the civilians.
    Senator Brownback. Thank you.
    The Chairman. Thank you. I'm just going to ask one question 
very quickly, because Richard Perle has other commitments, as 
well, and we want to get him on. I'm anxious to hear what he 
has to say.
    On this issue of poverty and terrorism, the root causes of 
terrorism, there was an article many of you may have read on 
November 17, ``Exploring the Flaws and the Notion of the Root 
Cause of Terror,'' by Edward Rothstein. I'm going to make two 
points that he made.
    He said, ``The current invocations of injustice theory are 
also seriously flawed. Consider just one supposed root cause of 
Islamic terrorism: poverty. The implication that to help stop 
terror, poverty must be ameliorated. There are, of course, very 
good reasons to allay poverty. Yet while some poverty-stricken 
people may engage in terror, there may be no essential 
relationship. Poverty can exist without terror. Think of the 
American Depression. And terror can easily exist without 
poverty.''
    And then the concluding paragraph, ``Contemporary Islamic 
terror can be considered a variety of totalitarian terror. It 
becomes clear just how limited the injustice theory and the 
question of root causes are. No doubt, injustices in policy can 
be argued over, but not as root causes of terror. 
Totalitarianism stands above such niceties. No injustice, 
separately or together, necessarily leads to totalitarianism. 
And no mitigation of injustice, however defined, will eliminate 
the unwavering beliefs, absolutist control, and unbounded 
ambitions. Claims of root causes are distractions from the real 
work at hand.''
    And the bulk of the article deals with how fundamentalism 
is really this century's version of totalitarianism written 
about earlier. What is your sense of that?
    Secretary Albright. Well, I think that it's too simplistic 
in some ways. I mean, I think that what you have are 
extremists. And there always are extremists who have some beef 
about what the general system is. And totalitarianism is--the 
terrorists do not control the whole system. They are outside of 
it in many ways. It's an--I mean, I'd have to read it more 
carefully----
    The Chairman. Well, what I----
    Secretary Albright [continuing]. But I think that the 
problem here is that we are going to have a hard time figuring 
out what the root causes are, and I think there are different 
causes for different parts of this.
    You mentioned, Mr. Chairman, that the people that were 
involved in September 11 were educated. Their problem was that 
they were dissatisfied with the system within which they 
operated, where they were not a part of whatever was happening 
in their countries. They had good educations, but they were not 
able to exert political and economic power. So their problem is 
dissatisfaction with their system.
    Then there are those who become available to be recruited 
by this band of fanatics, and they do come out of places that 
nurture--that hatred comes out of poverty or jealousy or lack 
of education.
    So I think--to me, I think we've got to be very careful not 
to label this all as one thing. It is much more complicated 
than that. And so that would be the point that I would make.
    The Chairman. I think that--for me, that's the essential 
point. I think poverty plays a role, but I think our national 
debate tends to fall into two schools. If you just take care of 
poverty--just like when I got here--no crime in America. If you 
just take care of poverty worldwide, no terrorism. And I think 
poverty contributes to the recruiting pool. I'm not at all 
sure--I think it's more this notion of irrational ambitions and 
these religious passions that play a significant role, as well, 
in this process. But I appreciate your answer. I'll send you 
the article.
    In the interest of time, does anyone else have a concluding 
question for the Secretary? Madam Secretary, thank you, as 
usual.
    Secretary Albright. Thank you all very much.
    The Chairman. We appreciate it an awful lot.
    Secretary Albright. I enjoyed it. Thank you.
    The Chairman. Thank you.
    Secretary Albright. Good to see you all.
    The Chairman. Our next witness is Richard Perle, who is a 
resident fellow at the American Enterprise Institute now. He is 
also chairman of the Defense Policy Board, Department of 
Defense; chairman and chief executive officer of Hollinger 
Digital, Inc.; director of the Jerusalem Post and he has played 
many other roles. He is a published author. He has published 
many, many articles and he, in my view, is quite frankly the 
most listened to and most respected foreign policy/defense 
analyst on the center right and it is a pleasure to have him 
here. I am sorry you had to wait so long and would you please 
begin with whatever testimony you would like to give us.

     STATEMENT OF RICHARD PERLE, RESIDENT FELLOW, AMERICAN 
              ENTERPRISE INSTITUTE, WASHINGTON, DC

    Mr. Perle. I appreciate your invitation to participate in 
this hearing which poses the question, ``How do we promote 
democratization, poverty alleviation, and human rights to build 
a more secure world?'' These three ideas--poverty, democracy, 
and human rights--are often linked as we try to think our way 
through the vexing problems of national and international 
security.
    The phrase, ``a more secure world'' is almost certainly 
prompted by the discovery on September 11 of how insecure we 
turned out to be on that day. In any case, hardly any 
discussion takes place these days that is not somehow related 
to terrorism and the war against it. And for my part this 
morning, it will be no exception.
    Let me say at the outset that the idea that poverty is a 
cause of terrorism, although widely believed and frequently 
argued, remains essentially unproven. That poverty is not 
merely a cause, but a ``root cause,'' which implies that it is 
an essential source of terrorist violence, is an almost 
certainly false and even a dangerous idea often invoked to 
absolve terrorists of responsibility or mitigate their 
culpability. It is a liberal conceit which, if needed, may 
channel the war against terror into the cul de sac of grand 
development schemes in the third world and the elevation of do-
good/feel-good NGO's to a role they cannot and should not play. 
I didn't want to leave you in any doubt as to where I stand.
    The Chairman. By the way, it may be of some surprise to 
you. I'm not at all sure you're wrong. I genuinely do not know 
the answer, but I know it's not just poverty.
    Mr. Perle. Well, it's certainly not a one-to-one 
relationship.
    What we know of the September 11 terrorists suggests that 
they were neither impoverished themselves, nor motivated by 
concerns about the poverty of others. After all, their avowed 
aim, the destruction of the United States, would, if 
successful, deal a terrible blow to the growth potential of the 
world economy. Actually, it would destroy the world economy. 
Their devotion to Afghanistan's Taliban regime, which excluded 
half the Afghan work force from the economy and aimed to keep 
them illiterate as well as poor, casts conclusive doubt on 
their interest in alleviating poverty.
    Poverty--or poverty and despair--is frequently the most 
commonly adumbrated explanation for terrorism abroad--and crime 
at home, frequently. Identifying poverty as a source of conduct 
invariably confuses the matter. We will never know what went 
through the mind of Mohammed Atta as he plotted the death of 
thousands of men, women, and children--many of them Muslims, by 
the way. We do know that he lived in relative comfort, as did 
most, perhaps all, of the 19 terrorists--15 of them from 
relatively affluent Saudi Arabia.
    If we accept poverty as an explanation, we will stop 
searching for a true and useful explanation. We may not notice 
the poisonous extremist doctrine propagated, often with Saudi 
oil money, in mosques and religious institutions around the 
world.
    If we attribute terrorism to poverty, we may fail to demand 
that President Mubarak of Egypt silence the sermons from 
mosques throughout Egypt preaching hatred of the United States. 
As you authorize $2 billion a year for Egypt--and I think this 
committee has that authority----
    The Chairman. That's correct.
    Mr. Perle [continuing]. Please remember that these same 
clerics are employees of the Egyptian Government. It is not a 
stretch to say that U.S. taxpayer dollars are helping to pay 
for the most inflammatory anti-American ranting.
    And I believe, Mr. Chairman, that if this committee were to 
take appropriate action, tying assistance to Egypt, to an end 
to this practice, you would see it end pretty much overnight.
    So when you hear about poverty as the root cause of 
terrorism, I urge you to examine the manipulation of young 
Muslim men sent on suicidal missions by wealthy fanatics, like 
Osama bin Laden, whose motives are religious and ideological in 
nature and have nothing to do with poverty or privation.
    Mr. Chairman, this hearing is about building a more secure 
future, and I know it will come as no surprise if I argue that 
doing that in the near term will require an effective military 
establishment to take the war on terrorism to the terrorists, 
to fight them over there, because they are well on the way to 
achieving their murderous objectives when we are forced to 
fight them over here. For once those who wish to destroy 
Americans gain entry to the United States and exploit the 
institutions of our open society, the likelihood that we will 
stop them is greatly diminished.
    This is why President Bush was right to declare on 
September 11 that, and I quote, ``We will make no distinction 
between the terrorists who committed these acts and those who 
harbor them,'' close quote. This was not the policy of the last 
Democratic administration or, for that matter, the Republican 
one before it.
    And I can't help but remark that Madeleine Albright's 
suggestion, that the current administration is somehow 
continuing the anti-terrorist policies of the previous 
administration, is really quite wrong. This President broke 
decisively, not only with the Clinton administration's policy, 
but with the previous Bush administration's policy. There was 
nothing partisan about the failure to come to grips with 
international terrorism.
    It is not a policy universally applauded by our allies, but 
it is a right and bold and courageous policy and the only 
policy that has a reasonable prospect of protecting the 
American people from further terrorist acts.
    Dealing effectively with the states that support or condone 
terrorism against us or even remain indifferent to it is the 
only way to deprive terrorists of the sanctuary from which they 
operate, whether that sanctuary is in Afghanistan or North 
Korea or Iran or Iraq or elsewhere. The regimes in control of 
these rogue states, a term used widely before the last 
administration--Madeleine Albright, in fact, substituted the 
placid term ``states of concern''--pose an immediate threat to 
the United States. They first priority of American policy must 
be to transform or destroy rogue regimes.
    And while some states will observe the destruction of the 
Taliban regime in Afghanistan and decide to end their support 
for terrorism rather than risk a similar fate, others will not.
    It is with respect to those regimes that persist in 
supporting and harboring terrorists that the question of the 
role of democratization and human rights is particularly 
salient. And foremost among these regimes is Saddam Hussein's 
Iraq.
    The transformation of Iraq from a brutal dictatorship in 
which human rights are unknown to a democratic state protecting 
the rights of individuals would not only make the world more 
secure, it would bring immediate benefits to the people of 
Iraq, all the people of Iraq except the small number of corrupt 
officials who surround Saddam Hussein.
     I believe this is well understood in the Congress, which 
has repeatedly called on the administration to support the 
Iraqi National Congress, an umbrella group made up of 
organizations opposed to Saddam's dictatorship. And, Senator 
Biden, you've been very much involved--and, I think, in a very 
helpful way, in that regard. So, of course, has Senator Helms.
    The INC is pledged to institute democratic political 
institutions, protect human rights and renounce weapons of mass 
destruction. As we think through the best way to change the 
regime in Iraq, it is precisely the proponents of democracy who 
deserve our support, not the disaffected officer who simply 
wishes to substitute his dictatorship for that of Saddam 
Hussein's.
    I hope, Mr. Chairman, that the Congress, which has been 
well ahead of the executive branch in recognizing this, will 
succeed in persuading this administration, although it failed 
to persuade the last one, that our objective in removing 
Saddam's murderous regime must be its replacement by democratic 
forces in Iraq. And the way to do this is to work with the 
Iraqi National Congress.
    Mr. Chairman, it goes without saying that democracies that 
respect human rights, and especially the right to speak and 
publish and organize freely, are far less likely to make war or 
countenance terrorism than dictatorships in which power is 
concentrated in the hands of a few men whose control of the 
instruments of war and violence is unopposed and often 
unchecked. As a general rule, democracies do not initiate wars 
or undertake campaigns of terror. Indeed, democracies are 
generally loath to build the instruments of war, to finance 
large military budgets, or keep large numbers of their citizens 
in military establishments. Nations that embrace fundamental 
human rights will not be found planning the destruction of 
innocent civilians. I can't think of a single example of a 
democracy planning acts of terror like those of September 11.
    We could discuss at length why democratic political 
institutions and the belief in the rights of individuals 
militate against war and terror and violence. But the more 
difficult questions have to do with how effectively we oppose 
those regimes that are not democratic and deny their citizens 
those fundamental human rights, the exercise of which 
constitutes a major restraint on the use of force and violence.
    Here, the issue is frequently one of whether we engage 
them, in the hope that our engagement will lead to reform and 
liberalization, or whether oppose and isolate them. I know of 
no general prescription. Each case, it seems to me, must be 
treated individually, because no two cases are alike.
    Take the three cases of the ``axis of evil.'' In the case 
of Iraq, I believe engagement is pointless. Saddam Hussein is a 
murderous thug, and it makes no more sense to think of engaging 
his regime than it would a mafia family.
    In the case of Iran, I doubt that the goals of 
democratization and human rights would be advanced by engaging 
the current regime in Teheran. There is sufficient disaffection 
with the mullahs, impressive in its breadth and depth, to 
commend continued isolation and patience. The spontaneous 
demonstrations of sympathy with the United States are brave and 
moving. We owe those who have marched in sympathy with us the 
support that comes from refusing to collaborate with the regime 
in power. The people of Iran may well throw off the tyrannical 
and ineffective dictatorship that oppresses them. We should 
encourage them and give them time.
    In the case of North Korea, end the policy of bribing them. 
Such a policy invites blackmail, by them and others who observe 
their manipulation of us, and it certainly moves them no closer 
to democracy or respect for human rights. We must watch them 
closely and remain ready to move against any installation that 
may place weapons of mass destruction or long-range delivery 
within their reach.
    Mr. Chairman, I have only one recommendation for the 
committee, and it is this: to support enthusiastically, and 
specifically with substantially larger budgets, the National 
Endowment for Democracy. On a shoestring, it has been a source 
of innovative, creative programs for the building of democratic 
institutions, often working in places where democracy and 
respect for human rights is only a distant dream. It may well 
be the most cost-effective program in the entire arsenal of 
weapons in the war against terror and for a more secure world. 
The Endowment, and even more, the organizations that benefit 
from the Endowment's support, need and deserve all the help we 
can give them.
    I don't agree with Secretary Albright that we should throw 
a lot of money at aid projects. I think we're just not very 
good at helping lift other nations out of poverty. And 
sometimes I think our programs perpetuate poverty by 
interfering with organic, generic economic development. But the 
National Endowment for Democracy, which uses very small amounts 
of money very precisely to encourage the evolution of 
democratic institutions, really deserves all the support that 
Congress can give it. And, in any given year, it's likely to be 
more than the executive branch requests. So I would urge you to 
plus-up that budget if you get a chance to do so.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much. I have so many 
questions, and I know your time is short. We'll stick with 
seven minutes here to get everybody through, and then if you 
have a chance to stay, I'd like to ask a few questions.
    Let me begin by saying I've known you for over 25 years, 
and the thing that I know frightens me sometimes is I most 
times agree with your premise. The times in which we disagree 
is on the margins that make a difference, in terms of what the 
action is.
    But I'd like to talk specifically about Saddam Hussein for 
a minute and steal a phrase from your testimony from a year 
ago, when you and Mort Halperin were here talking about the 
Iraqi National Congress and what we should be doing. And you 
said, ``We may not be that far apart as Mort and I think.'' I 
think Mort went on--we may not be very far apart, you and I, 
not that it particularly matters, but in terms of this 
discussion.
    I met at length recently with Mr. Chalabi, and this is not 
the first time I've done that. And as you know, neither this 
administration, nor the last administration, has used all the 
money that was available to promote the efforts of the Iraqi 
National Congress. And you expressed, in your testimony on 
March 1, 2001, and you've expressed at other times, the same 
concerns that I had. And I'm going to give you a little 
anecdotal evidence.
    Last year, when Mr. Chalabi assembled a group of about 20 
members of the coalition making up the Iraqi National Congress, 
they had a meeting in New York, as you recall. And I came down, 
as did a number of my Senate colleagues--I think maybe Senator 
Brownback was there; I'm not sure--I may be mistaken--we had a 
meeting with the representatives of the National Congress, 
chaired by Mr. Chalabi, in the Mansfield Room. And my friend 
may remember that we were all encouraging them to stay the 
course, keep the faith, and we wanted to get aid to them.
    And I did something very impolitic, which I guess won't 
surprise everyone. I stood up before him--and my colleague may 
remember--and I said to Mr. Chalabi--I said, ``You should all 
look us in the eyes all of you sitting here, because your lives 
may depend on this answer. If we support you, and if you begin 
the process, whether it's in the no-fly zones, which has some 
greater degree of protection--if you begin to move, and Saddam 
decides to move quickly, as he did''--and I think we ruefully 
did not respond to his action, as you remember at the time, 
against the Kurds--you know, the Kurds were split. He had 
worked them out, so he split them. I said, ``You should ask 
each of us, are we willing to commit American forces to save 
you?'' And I said, ``I'm going to ask for a show of hands.'' I 
said, ``I raise my hand.'' My recollection of the 12 or 13 
Senators who were sitting there nobody else raised their hand, 
which is a reflection of your testimony too, about this notion 
that if we get them going, are we willing, if they get shut 
down or are under siege--because unlike the Northern Alliance, 
these boys haven't been fighting. They are expatriates who I 
think are noble and have agreed to some basic consensus here, 
and I think they have the capacity--the capacity to govern if 
Saddam is down.
    And so my question--I keep coming back to it. When Mr. 
Chalabi came to me this time with representatives of the 
Congress representing the three major groups that make up the 
opposition, and he said to me--I expected something totally 
different--he said, ``We need your help.'' And I thought he was 
going to say to me personally he needed my help to try to push 
to free up the money. He said, ``We need your help for a 
commitment from the administration to train us. Train us now, 
not only in use of weapons, but in the bureaucratic 
requirements to run a government.''
    And in a nutshell, what he said was this, ``If we don't get 
that kind of help, which we're not getting now, we will be out 
of luck. You will go in, and we have no doubt you can topple 
Saddam, but we will be left in the cold, because we will not 
have the capacity to govern this country. We need help on how 
to run the oil fields. We need help on how to set up a 
government. Can you help us now?''
    And that leads me to this question. You and I have attended 
many conferences with our European friends. I don't think it's 
an exaggeration to say I've never been reluctant to express 
both publicly and privately my displeasure with the European 
attitude. At the World Economic Summit in New York, I met with 
half a dozen European leaders, including Mr. Verdrine, to hear 
about how displeased they are.
    I asked them two questions. One, if you don't like what 
we're saying, do you have a better solution, other than 
maintaining the status quo? And, two, what would get you to 
change your mind? And what I gleaned from this, Richard, is the 
following. And with this, I'm going to stop, and I'd like you 
to comment on this. Their concern, beyond the usual is, what 
happens after you take down Saddam? What happens then? Are you, 
the United States, willing to stay the course. And the analogy 
was made to me--Afghanistan, ``No doubt about the incredible 
power you have and the competence of the fighting force of the 
Americans that are on the ground. But your President says, 
you're not going to stay to be part of any multinational force. 
You're going to do the same.'' In summarizing what I got from 
six major European leaders. You're going to do the same thing. 
You're going to take down Saddam. OK, we're a war-fighting 
machine. We did our job. Time to go home. And we're going to be 
faced with the Kurds deciding whether they want a Kurdistan, 
the Greeks getting all upset, the Iranis deciding to move on 
the Shias in the south if they want to, where the oil wells 
are, et cetera. You know the deal.
    And I left with the impression--and I've been bold enough 
to suggest this to the administration--I believe you could get 
it all, in fact, if the President were willing to lay out his 
vision for what Iraq could be after Saddam. I truly believe 
that every Middle Eastern leader I've met with and every 
European leader, with one exception, would be very happy if we 
could surgically go in and get rid of Saddam and everything--it 
would remain a whole nation and be, quote, ``relatively 
stable.'' But they're afraid to make the move.
    And I'm wondering whether you'd comment on two points: the 
Iraqi Congress, what should we be doing with them now, beyond, 
quote, ``teaching them how to shoot a gun,'' and, number two, 
do you believe there's anything, or are they just intractable, 
that we can do with the Europeans so they're in on the deal 
after he's down, because, sure as heck, we will take him down, 
and it will not be difficult.
    Mr. Perle. I have reactions on both those questions, 
Senator. First, with respect to the Iraqi National Congress, I 
think we've lost a lot of time. I was unaware that Dr. Chalabi 
said what he said to you, but it strikes me as validation of 
the confidence I've had in him for a long time. When was the 
last time a leader seeking to topple an autocratic regime was 
already thinking about decent governance afterwards. When you 
find somebody like that, you should embrace them with both 
hands. And it is a disgrace, in my view, that his detractors in 
the administration and in some of the agencies of our 
government continue to slander him without a shred of evidence 
to support their allegations against him. And I hope that one 
of the things that comes out of the successful association with 
the INC and the liberation of Iraq is the liberation of some 
agencies of this government from the demons that have been 
inflicted on them.
    So I think confidence in the Iraqi National Congress is 
entirely justified, and the sooner we get on with helping them 
both remove Saddam and plan for democratic pluralism in the 
aftermath of Saddam, the better.
    There are others who would be quite happy simply to remove 
Saddam and replace him with a ``little Saddam.'' I think that 
would not be a good outcome for the United States.
    One further point. The question is still a valid one: Would 
we be prepared to use American military forces? And my view on 
that is an unequivocal, we should be.
    The Chairman. I agree.
    Mr. Perle. I also think that, with the passage of time, our 
ability to bring force to bear with precision and in a way that 
minimizes the risk to American forces has improved enormously. 
And we saw that in Afghanistan, and I believe we would see it 
again in Iraq. The combination of air power and allies on the 
ground is a formidable combination. And while I think it would 
require some American involvement on the ground, it would be 
nothing like the very large troop presence that was required, 
or thought to be required, in 1991.
    Now, with respect to Hubert Verdrine--and I--
    The Chairman. And it's not just him
    Mr. Perle. When you said ``beyond the usual,'' you meant 
the usual French resentment of American prominence.
    The Chairman. If I might add, it wasn't merely the French. 
He is the most notable.
    Mr. Perle. Well, he's been outspoken on this subject. I 
think he's--let me say, I think that what is uppermost in the 
minds of French policymakers is not how satisfactorily Iraq 
emerges when we replace Saddam Hussein. I think the French are 
interested in protecting their financial and economic interests 
in Iraq, in their oil deals with Saddam Hussein. I think 
they've been playing a very cozy game with Saddam for a long 
time, and it should not be elevated into some grander notion of 
searching for stability in the region or anything of the sort.
    What would happen if we were successful in removing Saddam 
and in bringing some democratic institutions to that very 
talented people in the country, would be the obliteration of 
the French commercial interests, and that's what I think 
worries them the most, because the people of Iraq are not going 
to embrace, once Saddam is gone, the governments that helped 
keep Saddam in power. It's just as simple as that. And I know 
that sounds harsh, but I believe fundamentally that that is the 
underlying motivation for French policy.
    The Europeans are nervous, to be sure. Europeans are always 
nervous. Happily, this is a situation in which, while it would 
be nice to have the Europeans with us, it's not essential. 
We're not going to use European forces, in any event. 
Politically, I don't think the Europeans will oppose us.
    And when it's all over, and the Iraqi people have been 
liberated from Saddam, and we hear the stories about what life 
was like under Saddam, I think the Europeans, as well as others 
in the region, will rush to tell us how they were with us all 
along.
    The Chairman. One former CENTCOM commander--general said to 
me, ``Our biggest problem if we were to be part of moving in on 
the ground or with air power, would be accommodating the number 
of prisoners of war who were voluntarily running over to 
surrender.'' This is a very thoughtful gentleman who said that. 
It's not some harebrained notion. I think there's some truth to 
that.
    I have no doubt about the ability to take him and his 
minions out, but I can't see any way, Richard, whereby there 
will not be instability. No matter how well Chalabi is able to 
lead this congress, which is fractionated, although now united 
on the one goal. It's going to take some time. I predict it's 
going to take a year or two to stabilize the country, and it's 
going to require some boots on the ground and some rifles in 
the hands beyond the Iraqi National Congress. I can't envision 
a circumstance where we go in, get the job done, and we go home 
immediately.
    And so that's the dilemma that I don't think the 
administration has addressed. And I think not that we need it 
militarily, but in the long haul it's useful to have that 
coalition to do the mopping-up part, which is costly, time 
consuming, and extends our forces.
    Mr. Perle. Well, I certainly would not assume that the 
administration would not be willing----
    The Chairman. I'm not assuming either, just haven't stated 
anything.
    Mr. Perle [continuing]. To play a full role. And I think 
the time will come when the administration develops a detailed 
policy with respect to Saddam Hussein and I hope articulates in 
a convincing way.
    The Chairman. Well, I look forward to that. I thank you. 
Mr. Chairman, please fire away.
    Senator Helms. Richard--I'm going to first-name you because 
we've known each other just about ever since I hit this town, 
and that was a while back--I want to apologize to you for 
bringing you here this morning, because you had a message that 
the media ought to have heard. There won't be syllable of what 
you have said in your fine statement in the media this evening 
or tomorrow. And as I listened to you, and as I listened to the 
distinguished former Secretary of State, I thought how great it 
would have been for that to have been a dialog between the two 
of you. You're a gentleman. She's a lady. You're smart. She's 
smart. And I thought about the young people who came, and they 
could scarcely hear her at all. And they left, and all the 
reporters have gone.
    Now, I would not have brought you here if I had known it 
was going to be that, because I had made clear my hope that we 
would have you on a panel, the two of you. And I think that 
would have been beneficial, and I think there would have been 
fair coverage of it--by the media.
    But, in any case, I won't ask you to come again unless we 
can make arrangements that I'm certain about. But your 
statement was good. You're a very patient gentleman, and I have 
about two questions.
    One involves Belarus and the regime of Aleksandr 
Lukashenko. Now, that's about the last vestige, I think, of 
totalitarianism in the heart of Europe. And opponents of that 
regime are regularly jailed and simply disappear. And I 
recently met with a group of the wives whose husbands have been 
taken by that regime. They don't know where their husbands are. 
Further reports have surfaced in the media regarding arms 
shipments from Belarus to Iraq.
    My question, what do you think the United States should do 
to complete the goal of what we call a democratic Europe? Ms. 
Annie Lee, she--if she was strong on anything, she was strong 
on language--and this was a long time ago. She was my English 
teacher. But she said, ``We don't have a democracy. We have a 
republic.'' And yet we talk about democracy, democracy, 
democracy. And I don't want to and am not going to get into 
that.
    But I think, Richard, that Shakespeare had it right, ``All 
the world is a stage, and all the people are actors.'' But I 
wonder, just for the record, what do you think the United 
States should do to complete a goal of a free Europe--for a 
democratic, republican Europe?
    Mr. Perle. At the end of the day, Senator, while we can 
exert great influence, ultimately the Europeans have to take 
responsibility for Europe. And we should feel entitled--I 
believe we are entitled to say to them, not simply because we 
defend them and have defended them in the past and they owe 
what peace and stability they now enjoy to the intervention of 
the United States in cleaning two wars in this century, but I 
think as a world leader, we owe it to insist that they meet a 
reasonable standard in concluding the democratization in 
Europe. That is why I thought we were entirely right to insist 
that we take decisive action in Bosnia when the Europeans were 
unwilling to do so, why I thought we should have lifted the 
sanctions when the Europeans were unwilling to do so.
    And every time we have backed down in deference to the 
Europeans, Europe has suffered. So I think we should insist and 
insist and insist. But at the end of the day, they're going to 
have to take responsibility for their own continent.
    Senator Helms. Well, do you think that Belarus should be 
involved in our dealings with Russia?
    Mr. Perle. I think if Belarus were appropriately dealt with 
by the Europeans, we might see some change. Just how we have--
these are seldom simply diplomatic issues, although they are 
dealt with by diplomatic institutions, so they are dealt with 
at a highly formal level of the head of state, head of the 
government level, when what often is involved goes much deeper 
into the fabric of those societies.
    There is not substitute for information. We should be 
aggressively involved in throwing light on the situation. But 
we should--the Europeans will have enormous influence here 
because of the economic dominance of the EU of the continent, 
and I think we should push them and push them farther.
    Senator Helms. I thank you, my friend. I'm going to put 
your statement in the record this afternoon, not that anybody 
reads it, but at least it will be available, and I understand 
reprints can be made and people can learn about it.
    [The prepared statement of Mr. Perle follows:]

  Prepared Statement of Hon. Richard Perle, Resident Fellow, American 
                          Enterprise Institute

    Mr. Chairman, I appreciate your invitation to participate in the 
Committee's hearing which poses the question ``How do we promote 
democratization, poverty alleviation, and human rights to build a more 
secure world?'' These three ideas, poverty, democracy and human rights 
that are often linked as we try to think our way through the vexing 
problems of national and international security.
    The phrase ``a more secure world'' is almost certainly prompted by 
the discovery, on September 11, of how insecure we turned out to be on 
that day. In any case, hardly any discussion takes place these days 
that is not somehow related to terrorism and the war against it. For my 
part, this morning will be no exception.
    Let me say, at the outset, that the idea that poverty is a cause of 
terrorism, although widely believed and frequently argued, remains 
essentially unproven. That poverty is not merely a cause, but a ``root 
cause,'' which implies that it is an essential source of terrorist 
violence, is an almost certainly false, and even a dangerous idea, 
often invoked to absolve terrorists of responsibility or mitigate their 
culpability. It is a liberal conceit which, if heeded, may channel the 
war against terror into the cul de sac of grand development schemes in 
the third world and the elevation of do-good/feel-good NGO's to a role 
they cannot and should not play.
    What we know of the September 11 terrorists suggests they were 
neither impoverished themselves nor motivated by concerns about the 
poverty of others. After all, their avowed aim, the destruction of the 
United States, would, if successful, deal a terrible blow to the growth 
potential of the world economy. Their devotion to Afghanistan's Taliban 
regime, which excluded half the Afghan work force from the economy and 
aimed to keep them illiterate as well as poor, casts conclusive doubt 
on their interest in alleviating poverty.
    Poverty--or poverty and despair--is the most commonly adumbrated 
explanation for terrorism abroad--and crime at home. Identifying 
poverty as a source of conduct invariably confuses the matter. We will 
never know what went through the mind of Mohammed Atta as he plotted 
the death of thousands of innocent men, women and children, including a 
number of Moslems. We do know that he lived in relative comfort as did 
most, perhaps all, of the 19 terrorists--15 of them from affluent Saudi 
Arabia.
    If we accept poverty as an explanation we will stop searching for a 
true, and useful, explanation. We may not notice the poisonous 
extremist doctrine propagated, often with Saudi oil money, in mosques 
and religious institutions around the world.
    If we attribute terrorism to poverty, we may fail to demand that 
President Mubarak of Egypt silence the sermons, from mosques throughout 
Egypt, preaching hatred of the United States. As you authorize $2 
billion a year for Egypt, please remember that these same clerics are 
employees of the Egyptian government. It is not a stretch to say that 
U.S. taxpayer dollars are helping to pay for the most inflammatory 
anti-American ranting.
    So when you hear about poverty as the root cause of terrorism, I 
urge you to examine the manipulation of young Muslim men sent on 
suicidal missions by wealthy fanatics, like Osama bin Laden, whose 
motives are religious and ideological in nature and have nothing to do 
with poverty or privation.
    Mr. Chairman, this hearing is about building a more secure future; 
and I know it will come as no surprise if I argue that doing that in 
the near term will require an effective military establishment to take 
the war on terrorism to the terrorists, to fight them over there 
because they are well on the way to achieving their murderous 
objectives when we are forced to fight them over here. For once those 
who wish to destroy Americans gain entry to the United States and 
exploit the institutions of our open society, the likelihood that we 
will stop them is greatly diminished.
    This is why President Bush was right to declare on September 11 
that ``We will make no distinction between the terrorists who committed 
these acts and those who harbor them.'' This was not the policy of the 
last Democratic administration or the Republican one before it. It is 
not a policy universally applauded by our allies. But it is a right and 
bold and courageous policy and the only policy that has a reasonable 
prospect of protecting the American people from further terrorist acts.
    Dealing effectively with the states that support or condone 
terrorism against us (or even remain indifferent to it) is the only way 
to deprive terrorists of the sanctuary from which they operate, whether 
that sanctuary is in Afghanistan or North Korea or Iran or Iraq or 
elsewhere. The regimes in control of these ``rogue'' states--a term 
used widely before the last administration substituted the flaccid term 
``states of concern''--pose an immediate threat to the United States. 
The first priority of American policy must be to transform or destroy 
rogue regimes.
    And while some states will observe the destruction of the Taliban 
regime in Afghanistan and decide to end their support for terrorism 
rather than risk a similar fate, others will not.
    It is with respect to those regimes that persist in supporting and 
harboring terrorists that the question of the role of democratization 
and human rights is particularly salient. And foremost among these 
regimes is Saddam Hussein's Iraq.
    The transformation of Iraq from a brutal dictatorship, in which 
human rights are unknown, to a democratic state protecting the rights 
of individuals would not only make the world more secure, it would 
bring immediate benefits to all the people of Iraq (except the small 
number of corrupt officials who surround Saddam Hussein).
    I believe that this is well understood in the Congress, which has 
repeatedly called on the administration to support the Iraqi National 
Congress, an umbrella group made up of organizations opposed to 
Saddam's dictatorship. The INC is pledged to institute democratic 
political institutions, protect human rights and renounce weapons of 
mass destruction. As we think through the best way to change the regime 
in Iraq, it is precisely the proponents of democracy who deserve our 
support, not the disaffected officer who simply wishes to substitute 
his dictatorship for that of Saddam Hussein.
    I hope, Mr. Chairman, that the Congress, which has been well ahead 
of the executive branch in recognizing this, will succeed in persuading 
this administration, although it failed to persuade the last one, that 
our objective in removing Saddam's murderous regime must be its 
replacement by democratic forces in Iraq and the way to do that is work 
with the Iraqi National Congress.
    Mr. Chairman, it goes without saying that democracies that respect 
human rights, and especially the right to speak and publish and 
organize freely, are far less likely to make war or countenance 
terrorism than dictatorships in which power is concentrated in the 
hands of a few men whose control of the instruments of war and violence 
is unopposed. As a general rule, democracies do not initiate wars or 
undertake campaigns of terror. Indeed, democracies are generally loath 
to build the instruments of war, to finance large military budgets or 
keep large numbers of their citizens in military establishments. 
Nations that embrace fundamental human rights will not be found 
planning the destruction of innocent civilians. I can't think of a 
single example of a democracy planning acts of terror like those of 
September 11.
    We could discuss at length why democratic political institutions 
and a belief in the rights of individuals militate against war and 
terror and violence. But the more difficult questions have to do with 
how effectively we oppose those regimes that are not democratic and 
deny their citizens those fundamental human rights, the exercise of 
which constitutes a major restraint on the use of force and violence.
    Here the issue is frequently one of whether we ``engage'' them in 
the hope that our engagement will lead to reform and liberalization, or 
whether we oppose and isolate them. I know of no general prescription. 
Each case, it seems to me, must be treated individually because no two 
cases are alike. Take the three cases of the ``axis of evil.''
    In the case of Iraq, I believe engagement is pointless. Saddam 
Hussein is a murderous thug and it makes no more sense to think of 
engaging his regime than it would a mafia family.
    In the case of Iran, I doubt that the goals of democratization and 
human rights would be advanced by engaging the current regime in 
Teheran. There is sufficient disaffection with the mullahs, impressive 
in its breadth and depth, to commend continued isolation--and patience. 
The spontaneous demonstrations of sympathy with the United States are 
brave and moving. We owe those who have marched in sympathy with us the 
support that comes from refusing to collaborate with the regime in 
power. The people of Iran may well throw off the tyrannical and 
ineffective dictatorship that oppresses them. We should encourage them 
and give them time.
    In the case of North Korea end the policy of bribing them. Such a 
policy invites blackmail, by them and others who observe their 
manipulation of us--and it certainly moves them no closer to democracy 
or respect for human rights. We must watch them closely and remain 
ready to move against any installation that may place weapons of mass 
or long-range delivery within their reach.
    Mr. Chairman, I have only one recommendation for the Committee and 
it is this: to support enthusiastically, and specifically with 
substantially larger budgets, the National Endowment for Democracy. On 
a shoestring it has been a source of innovative, creative programs for 
the building of democratic institutions, often working in places where 
democracy and respect for human rights is only a distant dream. It may 
well be the most cost-effective program in the entire arsenal of 
weapons in the war against terror and for a more secure world. The 
Endowment, and even more the organizations that benefit from the 
Endowment's support, need and deserve all the help we can give them.

    Mr. Perle. Well, thank you. And thank you for your earlier 
remarks, Senator. I would much have preferred that Secretary 
Albright and I go back and forth on this. It wouldn't have been 
exactly a clash of civilizations, but it would have been----
    Senator Helms. I think she would have enjoyed it. And I 
know you would have. But, you know----
    Mr. Perle. But I guess she has----
    Senator Helms. Another day, maybe.
    Mr. Perle [continuing]. Concerns about----
    The Chairman. While we're waiting for Senator Brownback, if 
I could comment on that, it has been the practice, all the time 
that I've been on the committee, that a former Secretary of 
State, a former Secretary of Defense, a former Cabinet 
Secretary, if they wish to testify alone, we accord them that. 
And that's the reason it was done. It wasn't done in any way to 
not get your comments out. I hope you know me well enough to 
know that wasn't the purpose. But having said that, it's a 
valid point, in terms of the continued coverage. But Senator 
Brownback is here, and he has some questions.
    Senator Brownback. Thank you, Mr. Chairman.
    The Chairman. If you have the time. It's about 26 of.
    Mr. Perle. Yes, I'm OK.
    The Chairman. Senator Brownback.
    Senator Brownback. Just a couple of questions, if I could. 
And my apologies for not being able to be here earlier. I was 
at another session.
    On looking at post-Saddam Iraq--I don't know if you had a 
chance to comment on this--what would your estimation be of the 
possibilities of that being a vibrant democracy in Iraq in 
post-Saddam?
    Mr. Perle. I'm very optimistic about Iraq. The people of 
Iraq, as it has already been noted, are enormously talented. 
Scientifically and technically, they lead the Arab world, even 
after the scourge of Saddam Hussein. They have a history of 
serious government. They've had a parliament in the past. In 
fact, Dr. Chalabi's father, I believe, was President of the 
Senate of Iraq, so there's some political history there.
    I also think that emerging from the dark night of Saddam's 
brutal dictatorship, there will be an energy and an exuberance 
that will reflect itself in a constructive reconstruction of 
Iraq. There will be some of the centrifugal forces that Senator 
Biden was referring to. But I also think the capacity of the 
Iraqis, who see themselves as Iraqis, could pull together and 
enjoy the fruits of the liberal humanitarian regime, have a 
pretty good chance of producing one of the great success 
stories.
    I know the region will certainly be better off. Saddam's 
Iraq is opposed to the peace process--sends checks to suicide 
bombers. So the world will be better off, and certainly the 
people of Iraq will be better off, and I think they will seize 
that opportunity. It won't be perfect. And I accept Senator 
Biden's point that we should be prepared to remain there to 
assist that process.
    I mean, the real success stories after World War II were 
the countries where we stayed around long enough. We wrote the 
Japanese constitution, we certainly got the Germans back on the 
right track. I think it's worth sticking around to see that the 
beginning of the process, the removal of Saddam, is not the end 
of the process.
    Senator Brownback. In the Islamic world, as I noted to 
Secretary Albright while you were here, in the President's 
State of the Union message, he talked about education and 
democracy in the Islamic world, and that we have not--he didn't 
say this; I'm saying it--we have not pushed that aggressively 
to date, but we're going to start doing that now.
    Take us through that major Presidential policy shift and 
what does that mean for us, in your estimation, specifically in 
Saudi Arabia, if you would, and potential other hot spots that 
you might identify as we press that policy forward.
    Mr. Perle. The issue is a little bit like changing 
direction. You first have to come to a stop before you can set 
off in the opposite direction. And the stop, in this case, is 
the end to the funding of institutions that are propagating 
hatred of the United States and the West, that are preaching 
intolerance and death and destruction.
    And whether the Saudis wish to acknowledge it or not, the 
fact is that their money has been going to institutions that 
are a major source--you talked about root causes? There's a 
root cause. Young people going to the mosque on Friday and 
hearing week after week after week about the evil of the United 
States.
    So the first thing we have to do before we can think about 
positive education is stop the poisonous education, and it's 
happening all over the Arab world and in countries where there 
are significant Arab communities and Muslim communities. And 
much of it is funded by the Saudis. So that's got to stop. And 
I think we have--if they want to consider that they are friends 
of the United States, then they've got to take some action to 
deal with this.
    If we were supporting institutions that were propagating 
hatred in Saudi Arabia, I suspect they'd be in here to ask us 
to stop, and we should ask them to stop. And they certainly 
could do that if they chose to do so.
    So in the United Kingdom and in this country, people would 
be shocked at what appears in some of the textbooks. It's true 
in places like the Palestinian Authority. It is scandalous that 
we have been silent for so long on what is being taught to 
young children in--under the aegis of the Palestinian Authority 
or the Government of Syria, or the Government of Lebanon. These 
textbooks are a disgrace. And they're--it continues to this 
day, to this moment.
    So I think that we will see real progress, Tom Friedman's 
Saudi proposal notwithstanding. I don't think we'll see real 
progress toward peace in the region until the practice of 
poisoning young minds ends and we hear an entirely different 
kind of education.
    At the point of which what we've been seeing stops, then, 
of course, there's a role to play in encouraging concepts of 
tolerance and ethnic and religious harmony. This is a country 
that is founded on it and that practices it, and that practices 
it every day.
    We certainly have the moral authority to talk about a 
pluralist society in which people are free to pursue their own 
beliefs. And that's what we should be doing. But it's important 
to recognize the problem.
    I listened to Madeleine Albright talk about how she tried 
very hard to get us to understand the Muslim world, the primer. 
You know, the institution that we fund to help us understand 
the rest of the world is the Department of State. Where have 
they been? And this isn't just a comment on the last 
administration. It goes back a very long way.
    We have, I'm sorry to say, a community of experts whom we 
have asked to advise us as a Nation on how to deal with the 
rest of the world, that has failed us miserably, and I'm 
talking about the whole assembly, hundreds of them, thousands 
probably, of former ambassadors and former DCM's and former 
chiefs of station. And where were they when this was going on 
under their very noses? I didn't hear the alarm bells ringing. 
I didn't see the articles. I think it's in part because our 
diplomatic establishment is so focused on government-to-
government relations, and it wasn't looking underneath to see 
the broad social and political trends that ultimately are far 
more important than what one Foreign Minister says to another.
    I'm sorry to be so meandering about that, but I think 
there's something desperately wrong with our appreciation of 
the Muslim world, with our appreciation of the particularly 
virulent forms of Islamism, the Wahabist view in particular. 
And it is not unreasonable for this committee to ask why the 
experts we pay to advise us on this fail to do so.
    Senator Brownback It's a good point. I just would say, in 
conclusion, if I could, that I want to thank you very much, Mr. 
Perle, because you've brought a lot of expertise for a long 
time to this country, and the country is grateful for you doing 
that.
    Second is that one of the things I think we're really going 
to have to look at is how we diversify our energy sources, 
because as we move to push democracy and education in the 
Islamic world, this could well be disruptive to a region that's 
been very important to us on energy supply. So our engagement 
in Central Asia, our engagement with Russia on oil, regions in 
South America--I mean, what I see us doing is, as we move 
democracy and education forward, we had better be very 
aggressive on diversifying our energy sources, including--and 
we had a tough topic here on ANWR. But I think if we're going 
to push democracy and education in the Islamic world, which I 
think we clearly should, and now is the time, if not a little 
past the time for us to do it, we'd better be diversifying 
these energy sources.
    Mr. Perle. I agree with that entirely, and I think Russia, 
by the way, has enormous undeveloped capacity that could be 
brought on stream fairly quickly. At something like $16, $17, 
$18 a barrel, there are tremendous resources in Canada, which, 
at those prices, are productive. That investment won't get made 
unless it's clear there's a market there, and we should be 
thinking seriously about the cost of energy security. It's a 
public good to be free from dependence on an unstable, 
turbulent part of the world.
    The Chairman. Do you have a few more minutes?
    Mr. Perle. I need to be at the Willard Hotel at 1:15, so if 
you can get me there at----
    The Chairman. Alright, we can arrange that. If the Senator 
has a minute--because it seems to me one of the reasons why--at 
the risk of hurting your reputation--I have disagreed with you 
a lot, but also admired you a lot--is that there's a 
consistency to what you say. I would posit that one of the 
reasons why--if we look back in the last 29 years that I've 
been here there hasn't been more of a hew and cry coming from 
the professionals about what was going on is because usually 
when there's a very serious fatal flaw in our failure to do 
something, it's because, for different reasons, liberals and 
conservatives arrive at the same spot.
    I'm reminded of the George Will's comment on another 
context saying, ``They obviously love capitalism more than they 
hate communism.''
    One of the reasons is the economic forces in this country 
have not been willing, and have--even when I was publicly 
critical of Saudi Arabia, I had the house come down on me, 
including this administration, saying, ``Whoa, whoa, whoa, 
don't do that.'' I had the Crown Prince's policy advisor in my 
office within 24 hours. This is 2 months ago. Seriously. I am 
not joking about this. You know I'm not kidding about this.
    And then you had liberals who would say, no, no, no, all 
this peace, love, brotherhood. We have to--you know, we have to 
work this out--we can negotiate this. We can work it out.
    I would argue, in very broad and very crude terms, that 
combination has kept us from doing the things we should be 
doing and is even keeping us now from doing some of the things 
that are obvious, which leads me to this question.
    If, in fact, the Crown Prince of Saudi Arabia, at the Arab 
Summit, proffers the plan that is being referred to as the 
``Friedman Plan,'' if he proffers that for real, if he actually 
goes out on a limb and says what he says, or what he may say, 
how should we, in the best sense of the word, ``take 
advantage'' of that? Because if, in fact--which I find hard to 
believe--but if, in fact, the Arab world would, in fact, agree 
to total diplomatic relations, purging their textbooks, 
stopping the rhetoric, et cetera, then that may be the basis on 
something where something really could be done.
    You have really good instincts so my question is: What's 
your instinct about whether or not the Saudis are likely to do 
what's been leaked? And if so, for what reason would they do 
it? Is it to buy time? What's the reason?
    Mr. Perle. Well, it's a very good question. And I think, 
Senator, that the Saudis understand that they're in some 
difficulty, that--wars create the conditions in which things 
change. And we just had a war, and it continues in other ways, 
and they understand--I think they understand that change is 
coming and it could be devastating to them. So it is possible 
that the Saudis could get behind a real reconciliation between 
Israelis and Palestinians.
    My advice would be to make the standards high enough so 
that it has a chance of real success. We've tended to not do 
that in the past. The getting of an agreement has taken 
precedence over the getting of a good agreement. So, for 
example, the Oslo process was supposed to include a 
renunciation of those sections of the Palestinian covenant that 
call for the destruction of Israel. And instead of a simple, 
straightforward ``we repeal these sections here and now,'' 
there was all this absurd obfuscation and remarks made in the 
presence of the President that were a substitute for doing the 
right thing. And so, to this day, those clauses of the covenant 
have never been repealed.
    If it's complete, if it's total, if it--if the Saudis are 
prepared to stand up and say, ``We accept the legitimacy of a 
Jewish state within whatever set of orders,'' then I think we 
may actually have something, if the others are prepared to 
accept it. If they renounce terrorism as an instrument for 
resolving this dispute, then you may have something.
    But I have to say that Camp David was never implemented. It 
was violated almost from day one. So I'm skeptical about 
whether even a powerful Saudi Crown Prince, over lunch with a 
New York Times correspondent, can launch the sort of 
fundamental cultural and psychological and political change 
that would be necessary.
    But set the standard high enough, because the one thing the 
world doesn't need is another unfulfilled promise.
    The Chairman. Last question. I'm not going to get into the 
``axis of evil'' that has now become so politically charged, it 
doesn't matter what you say, there's not a lot of intelligent 
debate surrounding it, in my view.
    Let me talk about North Korea. The point you make about 
``we should stop bribing North Korea,'' the President has said 
two things on his recent trip. One, he has reiterated the 
rhetoric about the evil power in North Korea. Who can argue 
with it? Two, he says he is fully committed to supporting the 
``sunshine policy'' of Kim Dae Jung. And he's ready to meet 
without any preconditions.
    Now, this sends somewhat conflicting messages, because it 
seems to me we're left with one of two roads here. One, we move 
vigorously and set clear conditions for the North Koreans, to 
which, if they don't respond, we reserve the right to 
preemptively strike them, to take out the threatening 
mechanisms that exist within their country. And I think it's 
very difficult to do both, to actually negotiate and plan that 
the other option is one you're ready to exercise.
    Talk to me about what, in your view, is the best way to get 
North Korea to stop the dangerous pursuit of weapons of mass 
destruction and the means of delivering them? And are we only 
left with the preemptive military strike as an option?
    Mr. Perle. They wouldn't get close enough to completion for 
that to be necessary, although we mustn't hesitate--
    The Chairman. Why wouldn't that--well, that's what I mean. 
In other words----
    Mr. Perle. No, it's not easy.
    The Chairman. Yes.
    Mr. Perle. It's not easy. And it's hard to do it in 
complete secrecy, although we do not have the sort of 
inspection in North Korea that would give us the confidence I 
think we would require. The fact that it's technically 
challenging is very helpful in this case.
    I'm rather pessimistic about North Korea. I think that 
place is in such terrible shape. I gather--someone was telling 
me the other day that the average height of the North Korean 
soldiers is something like 4 feet 10 inches--a product of years 
of malnutrition and suffering.
    I, frankly, don't know what the best course is with North 
Korea. But at the end of the day, we have to be prepared to 
destroy any installation which, if taken to completion, would--
--
    The Chairman. Well, as you point out, our intelligence 
community has missed the boat on almost every major development 
in the last 10 years, maybe longer. And so my concern about, at 
least what I consider a lack of clarity on what our position 
is, can lead to a lot of misunderstanding unrelated to North 
Korea. And I am concerned that, on the one hand, we say, to 
make the point how dangerous the North Korean regime is, that 
they're perilously close to gaining a nuclear bomb. They are 
even closer to gaining the capacity to have the third stages of 
a No Dong missile which could strike the United States, even 
though you and I both know the ability to put a nuclear weapon 
on top of that is highly unlikely at this stage because of the 
throwaway problem they have. Nonetheless, they have the 
potential capacity to build biological or chemical weapons and 
have such a launch.
    I think although many see that threat as somewhat 
exaggerated--not the ultimate threat; the immediacy. And so, as 
you pointed out in your statement, the Israelis did not wait 
for the reactor in Iraq to have the fuel cells placed in it. 
They took it out before then. And if our preemptive policy is 
based upon the most rational time at which to strike these 
installations, it would be hard to argue that, ``We're not in 
that time frame right now.''
    And so I am not sure that I'm in disagreement with--I am 
sure I'm confused by what the devil the President is saying. 
And maybe there are hard-baked plans and there is a clear 
notion of what's going on inside the administration. But if 
there is, they're not sharing it with the chairman of the 
Foreign Relations Committee or the ranking member or many other 
people that I'm aware of. And so it is a concern, and I haven't 
heard how you square these two oft-uttered statements of, 
``We'll sit down anytime, anywhere. We're ready to negotiate. 
We agree with the sunshine policy. And by the way, we're going 
to preemptively take you out if you don't watch yourself.''
    Mr. Perle. Well, if we'd left the North Koreans confused as 
well, that may not be such a bad thing.
    The Chairman. Well, it's not so bad if we've left them 
confused, but it bothers me that they left the American public 
and the policy makers here confused.
    But you never leave me confused. You always are clear in 
your points of view, and I sincerely appreciate you being here. 
We take what you say seriously.
    Mr. Perle. Thanks very much.
    The Chairman. Thank you.
    (Whereupon, the hearing was adjourned at 12:55 p.m.)

                                   - 

</pre></body></html>
